Report No. DODIG-2013-087                     May 31, 2013




               Special Plans and Operations



      Assessment of DoD Wounded Warrior Matters -
               Joint Base Lewis-McChord
      Inspector General
                 United States Department of Defense

      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 

                               programs and operations. 


       Mission
         Promote integrity, accountability, and improvement of Department 

             of Defense personnel, programs and operations to support the 

                  Department's mission and serve the public interest.






The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
   WARRIOR CARE POLICY
ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS
DIRECTOR, JOINT STAFF
   JOINT STAFF SURGEON
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. EUROPEAN COMMAND
COMMANDANT OF THE MARINE CORPS
   MEDICAL OFFICER OF THE MARINE CORPS
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS
DEPUTY CHIEF OF STAFF, G–1, U.S. ARMY
COMMANDER, HUMAN RESOURCES COMMAND
THE SURGEON GENERAL/COMMANDER, U.S. ARMY MEDICAL COMMAND
COMMANDER, WESTERN REGIONAL MEDICAL COMMAND
COMMANDER, UNITED STATES ARMY MEDICAL DEPARTMENT CENTER AND
SCHOOL
COMMANDER, WARRIOR TRANSITION COMMAND
COMMANDER, MADIGAN ARMY MEDICAL CENTER
COMMANDER, WARRIOR TRANSITION BATTALION
SURGEON GENERAL OF THE NAVY AND CHIEF, BUREAU OF MEDICINE AND
SURGERY
SURGEON GENERAL OF THE AIR FORCE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
COMPTROLLER)
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
INSPECTOR GENERAL, OFFICE OF THE SECRETARY OF VETERANS AFFAIRS
GOVERNMENT ACCOUNTABILITY OFFICE

SENATE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
SENATE COMMITTEE ON ARMED SERVICES
SENATE COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
HOUSE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
HOUSE COMMITTEE ON ARMED SERVICES
HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
Assessment of DoD Wounded Warrior Matters -                            Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                             May 31, 2013




               Results in Brief: Assessment of DoD
               Wounded Warrior Matters – Joint Base
               Lewis-McChord
What We Did
We assessed whether the programs for the care, management, and transition of Soldiers in the
Warrior Transition Battalion, Joint Base Lewis-McChord, Washington (hereafter the Warrior
Transition Battalion [WTB]) were managed effectively and efficiently. Specifically, we
evaluated the missions, policies, and processes in place to assist Warriors in Transition with their
return to duty status or transition to civilian life, and the DoD programs for Service members
affected with Traumatic Brain Injury (TBI) and Post Traumatic Stress Disorder (PTSD).

What We Found
We identified several initiatives implemented at both the WTB and Madigan Army Medical
Center (MAMC) that we believed to be noteworthy practices for supporting the comprehensive
care, healing, and transition of Soldiers.

We also identified a number of significant challenges that we recommend the Under Secretary of
Defense for Personnel and Readiness, Assistant Secretary of the Army, Manpower and Reserve
Affairs; Commander, Human Resources Command (HRC); Western Regional Medical
Command (WRMC); Commander, United States Army Medical Department Center and School;
Warrior Transition Command (WTC); MAMC and WTB leadership address, and which if
resolved, should increase program effectiveness.

What We Recommend
We recommend that the Under Secretary of Defense for Personnel and Readiness; Assistant
Secretary of the Army, Manpower and Reserve Affairs; HRC; WRMC; United States Army
Medical Department Center and School; WTC; MAMC and WTB leadership:

  •	 Develop policy guidance for Reserve Component (RC) Soldiers who volunteer for WTB
     positions to attend training prior to, or in route to their assignment at the WTB
  •	 Periodically evaluate the effectiveness of the WTB leadership and cadre training curricula
     to ensure it is relevant and meets the needs of WTB staff
  •	 Evaluate current and future manning requirements of WTBs to ensure they are 

     appropriately staffed to meet the mission and have experienced cadre in place to

     effectively manage and support Soldiers during their healing and transition

  •	 Conduct an analysis to determine if WTBs have adequate resources and funding to support
     appropriate manpower levels, ongoing staff training requirements, and support services in
     order to maintain staffing levels/ ratios to meet the mission
  •	 Review the Comprehensive Transition Plan policy and guidance for relevant and effective
     content in supporting Soldier transition needs


                                                 i
Assessment of DoD Wounded Warrior Matters -                       Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                        May 31, 2013

  •	 Complete the migration of the Comprehensive Transition Plan from the Army Knowledge
     Online to the Army Warrior Care and Transition System
  •	 Evaluate the effectiveness of the WTB leadership and cadre in actively engaging the

     Soldiers’ CTP and encourage Soldiers’ involvement and adherence to the plan for a

     successful transition

  •	 Publish and implement DoD guidance for expanding Soldier internships to include Non-
     Federal opportunities
  •	 Update command policies and provide interim measures to allow Soldiers assigned or
     attached to the WTB to participate in Non-Federal internship opportunities
  •	 Track each phase of the Integrated Disability Evaluation System (IDES) process over time
     to identify and act upon barriers to timely IDES completion for Soldiers assigned or
     attached to WTBs
  •	 Identify obstacles that inhibit prompt Medical Evaluation Board (MEB) completion, and
     request personnel resources that will eliminate the MEB backlog; acquire sufficient space
     to support staff requirements for effective MEB processing
  •	 Educate Soldiers and families on the IDES process; establish a means for Soldiers’ to
     track or be informed of his or her status in the IDES process
  •	 Conduct an analysis to determine obstacles to specialty care access and delays

     encountered and then take appropriate steps to ensure WTB Soldiers’ access to all 

     specialty care meets or exceeds the Army Enhanced Access to Care standards


Management Comments and Our Response
Those offices listed on the recommendations table concurred with comments to our
recommendations. Responses to seven recommendations were responsive and require no further
action. Responses to eight recommendations were responsive, however, requiring additional
comments. Therefore, we request additional comments on these eight recommendations by
June 30, 2013.

See Recommendations Table on page iii of this report.




                                              ii
Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                         May 31, 2013


Recommendations Table
         Management                    Recommendations             No Additional Comments
                                      Requiring Comment                  Required
Under Secretary of Defense for     C.4.1.
Personnel and Readiness
Assistant Secretary of the Army,                                   C.2.1.a., C.2.1.b.
Manpower and Reserve Affairs
Commander, Human Resources                                         C.1.1
Command
Commander, Western Regional                                        D.1.1.
Medical Command
Commander, United States Army      C.1.2
Medical Department Center and
School
Commander, Warrior Transition      C.1.1., C.1.2., C.2.1.a.,
Command                            C.2.1.b., C.3.1.a., C.3.1.b.,
                                   C.4.2.
Commander, Madigan Army                                            D.1.2.a., D.1.2.b., D.1.2.c.,
Medical Center                                                     D.1.2.d., D.2.
Commander, Warrior Transition                                      C.3.2.
Battalion

Please provide comments by June 30, 2013.




                                              iii
Assessment of DoD Wounded Warrior Matters -                     Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                      May 31, 2013





                           This Page Intentionally Left Blank
Table of Contents
Results in Brief ............................................................................................................................... i

Introduction................................................................................................................................... 1

   Objectives ................................................................................................................................... 1

   Background ................................................................................................................................. 2

Part I - Noteworthy Practices ................................................................................................... 13

Observation A. Noteworthy Practices for Joint Base Lewis-McChord

      Warrior Transition Battalion ........................................................................................ 15

Observation B. Noteworthy Practice for Madigan Army Medical Center – Madigan

      Healthcare System .......................................................................................................... 23

Part II - Challenges ..................................................................................................................... 27

Observation C. Challenges for Joint Base Lewis-McChord Warrior 

      Transition Battalion........................................................................................................ 29

Observation D. Challenges for Madigan Army Medical Center – Madigan

      Healthcare System .......................................................................................................... 49

Appendix A. Scope, Methodology, and Acronyms ................................................................. 63

Appendix B. Summary of Prior Coverage............................................................................... 69

Appendix C. Reporting Other Issues ....................................................................................... 73

Appendix D. Army Guidance for Warrior Transition Units ................................................. 75

Appendix E. Office of the Surgeon General Policy Guidance for the Comprehensive 

     Transition Plan................................................................................................................ 77

Appendix F. Management Comments...................................................................................... 79

This Page Intentionally Left Blank
Assessment of DoD Wounded Warrior Matters -                                      Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                       May 31, 2013





Introduction
Objectives
The broad objective of this ongoing assessment is to determine whether the DoD programs for
the care, management, and transition of recovering Service members wounded during
deployment in Operation Iraqi Freedom or Operation Enduring Freedom were managed
effectively and efficiently. 1

Specific Objectives
Our specific objectives were to evaluate the missions, the policies, and processes of:
    •	 Military units, beginning with the Army and Marine Corps, established to support the
       recovery of Service members and their transition to duty status (Active or Reserve
       Components) 2 or to civilian life; and
    •	 DoD programs for Service members affected with Traumatic Brain Injury (TBI) and Post
       Traumatic Stress Disorder (PTSD).

Assessment Approach
This is the sixth of six site assessments conducted at Army and Marine Corps Warrior Transition
Units. This assessment addressed the wounded, ill, or injured Soldiers’ matters at the Army
Warrior Transition Battalion (hereafter, “WTB”) located at Joint Base Lewis-McChord (JBLM),
Washington. To obtain unbiased data, not unduly reflecting the views of either the supporters or
detractors of the program, we used a two-pronged approach to select our respondents. First, we
determined how many Service members were required to be interviewed, and secondly, we
applied a simple random sample approach to determine the Service members we should
interview, as described in Appendix A. Subsequently, we interviewed 60 individual Soldiers and
26 additional Soldiers in 4 group interviews.

Additionally, we interviewed all available members of the key groups at JBLM responsible for
the Soldiers’ care. Specifically, we conducted meetings and interviews during our 2-week visit
to JBLM that included Madigan Army Medical Center (MAMC) and WTB military and civilian
staff, and contractors supporting the WTB. A list of the meetings conducted at the WTB JBLM
and MAMC – Madigan Healthcare System (MHS) located at JBLM, from June 14-24, 2011 is
shown in Appendix A, along with the scope, methodology, and acronyms of this assessment.
Prior coverage of this subject area is discussed in Appendix B.



1
  Subsequent to our project announcement and at the initiation of our fieldwork, the Army’s Warrior Transition
Command (WTC) informed us that approximately 10 percent of the Soldiers assigned or attached to Warrior
Transition Units (WTUs) were combat wounded.
2
  The Army consists of two distinct and equally important components, the Active Component and the Reserve
Component (Army National Guard and the Army Reserve).



                                                         1

Assessment of DoD Wounded Warrior Matters -                                     Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                      May 31, 2013

The observations and corresponding recommendations in this report focus on what we learned at
JBLM concerning its Wounded Warrior program. We believe that some of our observations may
have implications for other Warrior Transition Units (WTUs) and WTBs and should be called to
the attention of those responsible for these programs.

Additional reports and/or assessments may be subsequently performed by the DoD Office of
Inspector General on DoD Wounded Warrior matters or other related issues as they are
identified. Any specific Wounded Warrior issues, concerns, and challenges that we identified at
JBLM that may have to be addressed in future assessments and/or reports are discussed in
Appendix C.

Background
According to the Army’s Warrior Transition Command (WTC), on September 1, 2012, there
were 9,852 Warriors in Transition in the Army WTUs and Community Based Warrior Transition
Units (CBWTUs). 3 Over 1,000 were wounded in combat, approximately 2,000 were injured or
became sick and were medically evacuated 4 from theater, and approximately 2,100 returned
from a deployment prior to entry into a WTU but were not medically evacuated during the
deployment. Of the remaining 4,716 Soldiers who had not deployed within the last 6 months,
3,492 had deployed one or more times and 1,224 had never deployed. 5

Army Guidance
Army guidance for the care and management of Warriors in Transition is contained in the
“Warrior Transition Unit Consolidated Guidance (Administrative),” March 20, 2009 (hereafter,
“Consolidated Guidance”). The purpose of the Consolidated Guidance is to prescribe the
policies and procedures for the administration of Soldiers assigned or attached to WTUs. The
Consolidated Guidance addresses items such as eligibility criteria for a Soldier’s assignment or
attachment to a WTU; staffing ratios of Army care team members; and other administrative
procedures for Soldiers being considered for assignment or attachment to a WTU. For additional
information on the Consolidated Guidance, see Appendix D for summary description.

After our visit, the WTC updated their policy related to the Comprehensive Transition Plan
(CTP) for Soldiers assigned/attached to WTUs and CBWTUs; and formalized a review process
that facilitates the Soldiers progression through the WTU/CBWTU. The updated CTP Policy
and Guidance, December 1, 2011, is explained in further detail in Parts I, II and Appendix E of
this report.




3
  Community-Based WTUs are primarily for Reserve Component Soldiers. According to the Consolidated

Guidance, the Community-Based WTU is a program that allows Warriors to live at home and perform duty at a 

location near home while receiving medical care from the Tricare network, the Department of Veterans Affairs, or

Military Treatment Facility (MTF) providers in or near the Soldier’s community.

4
  Medical evacuation is defined as to transport a patient to a place where medical care is available.

5
  Figures provided by the Army WTC, Program Performance and Effectiveness Branch, September 10, 2012.




                                                        2

Assessment of DoD Wounded Warrior Matters ­                                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                         May 31, 2013

Warriors in Transition
The Army’s wounded, ill, and injured Service members were referred to as Warriors in
Transition (WTs) at the time of our site visit. The mission statement of a Warrior in Transition
is:
                  I am a Warrior in Transition. My job is to heal as I transition back to duty or
                  continue serving the nation as a Veteran in my community. This is not a status
                  but a mission. I will succeed in this mission because

                  I AM A WARRIOR AND I AM ARMY STRONG.

As of December 1, 2011, the Army replaced the term “Warrior in Transition” with “Soldier.”

Warrior Transition Units
In 2007, the Army created 35 WTUs at major Army installations primarily in the Continental
United States (CONUS) and at other sites outside CONUS to better support the recovery process
of the Army’s wounded, ill, and injured Service members. As of December 2011, there were 28
WTUs located in CONUS, 1 in Hawaii, 1 in Alaska, and 2 in Europe, as well as, 8 Community-
Based WTUs located in CONUS and 1 in Puerto Rico.

A WTU is a company level unit and a WTB includes multiple companies or CBWTUs. A WTB
is commanded by a field grade officer (typically a Lieutenant Colonel) 6 with multiple companies
or CBWTUs that report to him or her. The unit located at JBLM is a battalion size unit and is a
WTB. Additionally, WTC policy uses WTU to refer to all units including the WTB. Therefore,
throughout this report we will refer to WTU when citing general policy applications and WTB
when specifically referring to the WTB at JBLM.

Figure 1 illustrates the Regional Medical Commands Area of Responsibility and their
geographically aligned CBWTUs, to include WRMC.




6
 A military officer, such as a major, lieutenant colonel, or colonel, ranking above a captain and below a brigadier
general.



                                                          3

Assessment of DoD Wounded Warrior Matters -                                          Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                           May 31, 2013


                     Figure 1. Regional Medical Commands Area of Responsibility




       Source: Warrior Transition Command – December 2011

The commander of each WTB reports to the commander of the Military Treatment Facility
(MTF) to which its Soldiers are assigned. Army WTB care teams consist of, but are not limited
to, military staff, physicians, nurses, behavioral health specialists such as psychologists and
social workers, occupational therapists, including civilians and outside organizations offering
resources to the Soldiers in support of mission accomplishment.

WTUs provide support to Soldiers who meet the eligibility criteria, which generally require that:
(1) a Soldier has a temporary physical profile, 7 or is anticipated to receive a profile, for more
than six months with duty limitations that preclude the Soldier from training for or contributing
to unit mission accomplishment, and (2) the acuity of the wound, illness, or injury requires
clinical case management to ensure appropriate, timely, and effective utilization of and access to
medical care services to support healing and rehabilitation.8




7
  According to Army Regulation 40-501, “Standards of Medical Fitness,” December 14, 2007, the basic purpose of
the physical profile serial is to provide an index to overall functional capacity. The physical profile serial system is
based primarily upon the function of body systems and their relation to military duties. The six factors that are
evaluated are: physical capacity or stamina, upper extremities, lower extremities, hearing and ears, eyes, and
psychiatric. Profiles can be either permanent or temporary.
8
  Army National Guard and Army Reserve Soldiers may be eligible for assignment or attachment to a WTU but fall
under a different and more complex process than Active Component Soldiers. The processes are shown in the
Consolidated Guidance.



                                                           4

Assessment of DoD Wounded Warrior Matters -                                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                         May 31, 2013

Triad of Care
The Army established the Triad of Care concept to envelop the Soldiers and their families in
comprehensive care and support, which is focused on each Soldier’s primary mission – to heal
and transition. The “Triad of Care” consists of a squad leader, a nurse case manager (NCM), and
a primary care manager (PCM). Within the “Triad,” the squad leader leads Soldiers, the nurse
case manager coordinates their care, and the primary care manager oversees the care.
Specifically, the Triad of Care works together as a team 9 to collect Soldier data and information
and develop a plan of care specific to each Soldier. The plan of care addresses medical
treatment, administrative requirements, support needs, and disposition. The intent is for all of
these elements to work together to ensure advocacy for the Soldiers, continuity of care, and a
seamless transition back into the force or to a productive civilian life. The Triad of Care
structure is shown in Figure 2.
                                           Figure 2. Triad of Care




                        Source: Brooke Army Medical Center, Warrior Transition
                        Battalion Handbook, June 2010

Fragmentary Order (FRAGO) 3 to Execution Order (EXORD) 188-07, March 20, 2009,
established the WTU Triad of Care staff to Soldiers ratios at: squad leader (1:10), nurse case
manager (1:20), and primary care manager (1:200).

The following is a brief description of each Triad of Care member’s roles and responsibilities.
    •	 Squad Leader – traditionally a Non-Commissioned Officer (NCO) in the rank of
       Sergeant (E-5) or Staff Sergeant (E-6) and is the first line supervisor for all Soldiers.
       Their duty description includes, but is not limited to: accounting for Soldiers daily,
       counseling them and guiding them in their Comprehensive Transition Plan (CTP), 10


9
  According to the December 1, 2011 Comprehensive Transition Policy and Guidance, the inter-disciplinary team
includes the WTU clinical and non-clinical team members that consist of the Triad of Care (Squad Leader, Nurse
Case Manager, and Primary Care Manager) along with the Occupational Therapist Registered (OTR), Certified
Occupational Therapy Assistant (COTA), Physical Therapy Assistant (PTA), Clinical Social Worker (CSW), Army
Wounded Warrior Advocate, Soldier and Family Assistant Center (SFAC) personnel and Transition Coordinators.
10
   The CTP supports Soldiers in returning to the force or transitioning to a Veterans’ status. Although standardized,
the CTP allows each Soldier to customize his/her recovery process, enabling them to set and reach their personal
goals with the support of the WTU cadre. For additional information on the CTP, see Observations A, C and
Appendix E.



                                                          5

Assessment of DoD Wounded Warrior Matters -                                           Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                            May 31, 2013


         ensuring that they attend all appointments, tracking all of their administrative
         requirements, and building trust and bonding with Soldiers and their families.
     •	 Nurse Case Manager (NCM) – a civilian or Army military nurse who provides the
        individualized attention needed to support the medical treatment, recovery, and
        rehabilitation phases of care of the Soldiers. The goal of case management is to
        orchestrate the best care for the Soldiers by monitoring progression of care, Transition
        Review Board 11 recommendations, and Soldiers’ respective goals to facilitate transition
        of the Soldier from one level of care to the next.

     •	 Primary Care Manager (PCM) – is either a military or civilian healthcare provider (e.g.
        Physician, Physician Assistant, or Nurse Practitioner) who is the medical point of contact
        and healthcare advocate for the Soldier. They provide primary oversight and continuity
        of healthcare and are to ensure the level of care provided is of the highest quality. They
        are the gateway to all specialty care (such as behavioral health specialists or orthopedic
        surgeons) and they coordinate with other care providers to ensure that the Soldiers are
        getting the treatment that they need.

Joint Base Lewis-McChord
JBLM, 12 Washington is one of 12 joint bases created by the 2005 Base Realignment and
Closure 13 Commission. The joint base includes Fort Lewis and McChord Air Force Base. The
JBLM community consists of 36,668 military, 11,324 civilians and 53,033 family members.

Army units assigned to JBLM include: I Corps; 14 2nd Brigade, 2nd Infantry Division; 3rd
Brigade, 2nd Infantry Division; 4th Brigade, 2nd Infantry Division; 17th Fires Brigade; and
resident units such as the 1st Special Forces Group (Airborne); the 2nd Battalion, 75th Ranger
Regiment; 8th Brigade, U.S. Army Cadet Command; Western Regional Medical Command
(WRMC); Madigan Army Medical Center (MAMC); and several other non-divisional support
units.

Air Force units assigned to JBLM include: 62nd Airlift Wing, Air Mobility Command; Air
Force Special Operations Command; 446th Airlift Wing, Air Force Reserve Command; Western
Air Defense Sector and 262nd Network Warfare Squadron, Washington Air Guard, 22nd Special
Tactics Squadron and the 627th Air Base Group.



11
   Transition Review Boards are intended to facilitate dialogue between the Warrior and the Triad of Care, chain of
command, and other members of the Warrior’s care team, as appropriate, regarding both the Comprehensive
Transition Plan progress and future strategy for the Warrior’s transition.
12
   Figures and information, Joint Base Lewis-McChord 2012 Base Guide and Directory
13
   “BRAC” is an acronym which stands for base realignment and closure. It is the process DoD has previously used
to reorganize its installation infrastructure to more efficiently and effectively support its forces, increase operational
readiness and facilitate new ways of doing business.
14
   First Corps is one of the four Corps headquarters in the active Army, and one of three based in the continental
United States. I Corps has been designated as one of the active Army’s contingency corps, and stays prepared to
deploy on short notice worldwide to command up to five divisions or a joint task force.



                                                            6

Assessment of DoD Wounded Warrior Matters -                          Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                           May 31, 2013

Joint Base Lewis-McChord is a training and mobilization center for all services, and the only
Army power-projection platform west of the Rocky Mountains. JBLM has a sub-installation at
Yakima Training Center located in eastern Washington State.

Surrounding Area
JBLM is located about 12 miles from Olympia, Washington’s capital. The metro area, including
the communities of Lacey and Tumwater, has a population of more than 88,000. The nearby
Providence St. Peter Hospital is a 390-bed, not-for-profit regional teaching hospital offering
comprehensive medical, surgical and behavioral health services.

Tacoma, located north of JBLM, approximately 15 miles, is the largest city close to the base,
with a population of about 200,000. It offers an abundance of cultural resources and a University
of Washington campus. St. Joseph Medical Center is a 343-bed regional medical center, home to
the South Sound’s largest heart and vascular center, a Level II Trauma Center and other
advanced programs.

The nearest large city (Seattle, WA) is approximately 50 miles north of JBLM and has a
population of approximately 602,000. Seattle is home to Harborview Medical Center, one of the
nation’s leading hospitals and the only Level I adult and pediatric trauma and burn center serving
Washington, Alaska, Montana, and Idaho. The medical center offers highly specialized services
such as trauma and burn care, as well as neurosurgery, eye care, vascular, rehabilitation, sleep
medicine (sleep apnea) and spine care.

The VA Puget Sound Health Care System located in Seattle offers a variety of services to
include: diagnostic imaging, emergency and urgent care services, and mental health, to include
PTSD programs, and rehabilitation care and spinal cord injury services. VA Medical Centers are
located in Spokane, WA, Portland, OR, and Boise, ID. In addition, a Vet Center is located in
Tacoma, WA, offering counseling, family therapy and outreach services Monday through Friday
and upon request.

Western Regional Medical Command
JBLM is the central headquarters for The Western Regional Medical Command (WRMC). The
Command covers 20 states, and is geographically the largest of the Army’s three regional
medical commands in CONUS. The two-star Commanding General has oversight of nine Army
medical treatment facilities, two medical detachments, and other medical assets within the
region. The Commanding General, WRMC also provides oversight for the health care delivery
process of Active, and Reserve Component Soldiers, retirees, and their families.

There are 10 WTUs in the WRMC serving over 2,000 Soldiers, and two CBWTUs. As of April
6, 2012, CBWTU-California oversees approximately 268 Soldiers receiving care across
California, Nevada, Oregon and Washington. CBWTU-Utah manages the care of approximately
215 Soldiers, covering 13 western and central states.

Madigan Army Medical Center – Madigan Healthcare System
Headquartered at Madigan Army Medical Center (MAMC) on JBLM, the Madigan Healthcare
System is a network of Army medical facilities located throughout Washington, Oregon, and


                                                7

Assessment of DoD Wounded Warrior Matters -                                      Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                       May 31, 2013

California which serve more than 109,000 active duty service members, their families and
retirees. MAMC is a 200-bed facility offering a variety of patient care services to include:
medical and surgical care, patient-centered adult and pediatric primary care, 24-hour emergency
care, specialty clinics, clinical services, and behavioral health and wellness services.

MAMC supports 34 Graduate Medical Education (GME) 15 programs; has enrolled
approximately 552 trainees, interns, residents, and fellows; and has supported 548 Medical
Student Clerkships annually. Additional programs included: Nursing and Enlisted Medic
education; Civilian education (e.g., Bachelor of Science in Nursing, Associate of Science Degree
in Nursing and Licensed Practical Nursing programs) as well as graduate nursing students and
numerous technical programs.

Finally, MAMC through the use of the Anderson Simulation Center (ASC) has provided training
to over 29,000 medical personnel since 2002. Training opportunities included: basic medical
skills training and trauma skills (scenarios) training; hosted training in Advanced Cardiac and
Trauma and Pediatric Life Support, and Trauma Nursing Core and Emergency Nursing Pediatric
Courses. The ASC staff has also supported off-site training to units during field exercises and at
MAMC. The Andersen Center was re-accredited as a Level 1 (highest level) Education Center
by the American College of Surgeons in 2008 and is the first and only DoD center to obtain this
accreditation and one of less than 20 hospitals to do so in the U.S.

Warrior Transition Battalion (JBLM)
In 2007, MAMC activated the Warrior Transition Battalion for wounded, ill, and injured
Soldiers. The mission of the JBLM WTB, also known as “Phoenix Battalion,” is to provide
command and control, primary care, and case management for Soldiers in Transition to establish
conditions for their healing and to promote their timely return to the force or transition to civilian
life.

The WTB also provides oversight to a CBWTU which allows Guard and Reserve Soldiers to live
with their families and receive local healthcare in communities not near Army medical facilities.
The WTB also partnered with the U.S. Department of Veterans Affairs and other governmental
agencies to enhance the care and service of Soldiers and families at both national and local
levels.

As of June 21, 2011, the JBLM WTB staff population was approximately 109 military members,
with 33 staff assigned to the CBWTU-CA. The WTB consisted of a headquarters company
(HHC) and four additional companies (Alpha, Bravo and Charlie companies, along with E Co or
CBWTU-CA) that collectively provided unit leadership and focused on meeting the command
and control functions. The JBLM Warrior Transition Battalion Organization is illustrated in
Figure 3.




15
  Any type of formal, usually hospital-sponsored or hospital-based training and education, that follows graduation
from a medical school, including internship, residency, or fellowship.



                                                         8

Assessment of DoD Wounded Warrior Matters -                                      Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                       May 31, 2013


                   Figure 3. JBLM Warrior Transition Battalion Organization




 Source: Recreated by DoD IG SPO from Joint Base Lewis-McChord Warrior Transition Battalion slides,
 June 14, 2011

The JBLM WTB Clinical Operations included a nurse case management staff, a battalion
surgeon, primary care managers, and a clinical pharmacist. Social Workers and occupational
therapists were also physically located at the JBLM WTB.

Subsequent to our visit, Soldiers relocated to a new Warrior Transition Battalion Complex
(September 2011) adjacent to MAMC. The Complex has 408 “1 plus 1” suites and single rooms,
to include 42 disability friendly rooms for Soldiers. The JBLM WTB Administration Building,
which opened January 8, 2013, supports Warrior Transition services, to include four Warrior
Transition Companies and the Soldier and Family Assistance Center (SFAC). 16

Between June 1, 2007, 17 and December 31, 2012, JBLM WTB had over 2,600 Soldiers complete
their program. Table 1 shows the total Soldiers by Component who have transitioned.




16
   The Soldier and Family Assistance Center (SFAC), delivers on-site streamlined non-medical services to Soldiers

and their family members as they heal and prepare for transition.

17
   June 1, 2007, is the date that the U.S. Army WTC was officially activated.




                                                        9

Assessment of DoD Wounded Warrior Matters -                                        Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                         May 31, 2013


                 Table 1. Soldiers Who Transitioned Through the Joint Base

              Lewis-McChord WTB Between June 1, 2007, and December 31, 2012

              Active Component                                                                   1,482
              National Guard                                                                       826
              Reservist                                                                            389
              Total Soldiers                                                                     2,697
            Source: Figures provided by the Army WTC, Program Performance and Effectiveness
            Branch, February 2013

At the time of our visit there were 451 Soldiers assigned to the JBLM WTB; 207 Active Duty,
168 National Guard, and 76 Reservists. Of the 451 Soldiers assigned, 67 were combat
wounded; 18 384 were non-battle injury19 related, and 123 Soldiers had injuries related to PTSD 20
or TBI. 21 Additionally, 250 Soldiers were assigned to CBWTU-CA, two Active Component
Soldiers, and 248 Reserve Component Soldiers.

Traumatic Brain Injury and Post Traumatic Stress Disorder
TBI and PTSD are increasingly common diagnoses for recovering Service members. TBI is also
referred to by its common term, “concussion,” which is when someone receives a direct blow or
a jolt to their head that disrupts the function of the brain. Service members may sustain
concussions or TBIs when exposed to a blast or explosion (sometimes on multiple occasions),
which may lead to serious symptoms. There are three different levels of TBI (mild, moderate,
and severe) based on the severity of damage to the brain.

PTSD is an anxiety disorder or condition that may develop after someone has experienced or
witnessed a life-threatening or traumatic event, which may include a combat event. PTSD
usually begins immediately after the traumatic event but it could start later, even years later. A
PTSD event likely involved actual or perceived death or serious injury and caused an intense
emotional reaction of fear, hopelessness, or horror.

Virtual Behavioral Health is a Western Regional Medical Command initiative that enables
medical providers to conduct behavioral health screening remotely with Soldiers by use of video
teleconferencing. This allows behavioral health assets in the region to maintain continuity of


18
   According to an official from the U.S. Army WTC, the following definition applies to Warriors in Transition: 

“Combat Wounded” – Soldiers who have been wounded by enemy actions while serving in a contingency theatre of

operations.

19
   A non-battle injury is defined as a person who becomes a casualty due to circumstances not directly attributable to

hostile action or terrorist activity; also called NBI.

20
   The definition of PTSD is from multiple sources, including “Force Health Protection and Readiness Quick TBI

and PTSD Facts,” October 15, 2008; and Jessica Hamblen, PhD, “What is PTSD?” National Center for PTSD,

U.S. Department of Veterans Affairs, October 15, 2008.

21
   The definition of TBI is from multiple sources, including “Types of Brain Injury,” Brain Injury Association of

America, October 15, 2008; and “Force Health Protection and Readiness Quick TBI and PTSD Facts,” Force Health

Protection and Readiness, October 15, 2008.




                                                         10

Assessment of DoD Wounded Warrior Matters -                          Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                           May 31, 2013

care with Soldiers and family members during their redeployment cycle, while providing a
“surge” capability for behavioral health screening that minimizes travel time and cost.

JBLM has a state-of-the-art Mild Traumatic Brain Injury (mTBI) clinic located on post within a
mile of MAMC and the new WTB Complex. The mTBI Clinic consists of an interdisciplinary
team, to include, but are not limited to: primary care providers, Neurologists,
Neuropsychologists, Clinical Psychologists, Licensed Practical Nurse (LPN), TBI Case
Managers, Education Specialist, Ombudsman, and Administrative Medical Assistants offering a
variety of services to support Soldiers, and working together to provide quality medical treatment
and education to Soldiers. During our interview, the mTBI Program Director indicated they had
a collaborative relationship with the WTB staff in supporting Soldiers.

MAMC offers behavioral health services to include inpatient and outpatient psychiatric care,
evaluation and management of psychotropic medications, individual and group psychotherapy,
diagnostic evaluation and testing, and neuropsychological services. Soldiers may self-refer for
mental health services to the Behavioral Health Clinic, which is operated as an open access walk-
in clinic. Additional programs and services included:

   •	 Substance Abuse Rehabilitation Program, Outpatient Counseling, Intensive Short-Term
      Outpatient program, PTSD Clinical Group;
   •	 Preventive Intervention Program, to include, Stress and Anger Management; and
   •	 Social Work Services and Service Dog program.




                                               11 

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              12

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                Part I ­
                          Noteworthy Practices





                                              13

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              14

Assessment of DoD Wounded Warrior Matters -                           Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                            May 31, 2013



Observation A. Noteworthy Practices for Joint
Base Lewis-McChord Warrior Transition
Battalion
At the time of our assessment, we observed three noteworthy practices that Joint Base Lewis-
McChord Warrior Transition Battalion had instituted with respect to providing quality services
for Soldiers. Those practices included:

A.1. Availability of Resources to Assist Soldiers with their Transition to Civilian Life

A.2. Implementation of the Comprehensive Transition Plan Scrimmage

A.3. Co-Location of Social Workers at the Warrior Transition Battalion

Based on our assessment, we concluded that these three practices will continue to improve and
enhance the recovery process for Soldiers and their transition from the Joint Base Lewis-
McChord WTB.




                                                15

Assessment of DoD Wounded Warrior Matters -                                      Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                       May 31, 2013

A.1. Availability of Resources to Assist Soldiers with their
Transition to Civilian Life
Soldiers assigned or attached to the Warrior Transition Battalion were required to “in-process”
through the Soldier and Family Assistance Center (SFAC) to ensure that they received a
comprehensive orientation on the services available to them and their families. This
comprehensive knowledge of available resources can greatly assist with easing the stress of and
smoothing the transition for Soldiers and their families.

A.1. Background
The SFAC is a component of the total continuum of Soldier care that provided integrated support
services for Soldiers and their families at a “one-stop” location near the WTB. The JBLM SFAC
provided crucial, non-medical services necessary to smooth the transition for Soldiers and their
families assigned to the WTB and the Community Based Warrior Transition Unit (CBWTU) in
California. Furthermore, services were available for non-WTB Soldiers who were going through
the Medical and Physical Evaluation Board (MEB/PEB) 22 process and for any other military
personnel and their families that came in requesting resources and services.

The SFAC services available to Soldiers and their families included:

     •	 Information and Referral – assisted with Permanent Change of Station relocation services
        (e.g. household property, housing referral, newcomers)
     •	 Financial Readiness and Educational Services – offered financial and educational
        assistance (e.g. spending plan, debt reduction, tuition assistance, scholarship options and
        VA educational benefits)
     •	 Outreach and Veterans Services – links military and civilian support services with the
        SFAC; and assisted Wounded Soldiers with their transition to civilian life
     •	 Child, Youth, and School Services (CYSS) – provided reduced childcare rates on and off
        post while Soldiers are assigned to the WTB
     •	 Military Personnel Services – human resources assistance in updating Soldiers personnel
        records, tracking down orders, and awards
     •	 Army Career and Alumni Program (ACAP), and Recovery Employment and Assistance
        Lifeline (REALifelines) – performed individual counseling session to develop an
        Individualized Transition Plan (ITP) for the Soldier; and offered assistance regarding
        employment opportunities based on career interests/or assessment tools
     •	 Traumatic Servicemember’s Group Life Insurance (TSGLI) – an advocate was assigned
        to work with Soldiers in the WTB on filing claims based on traumatic injuries incurred
     •	 Social Services/Social Security Assistance - conducted confidential family assessment
        and coordinated referral services for marital and family advocacy issues


22
  Medical Evaluation Board (MEB) is the DoD process designed to determine whether a Soldier’s long-term
medical condition enables him/her to continue to meet medical retention standards. The MEB is considered an
informal board process because, by itself, it does not drive any personnel actions. The Physical Evaluation Board
(PEB) formally determines fitness for continued service and eligibility for disability compensation.



                                                        16

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                          May 31, 2013

A.1. Discussion
The JBLM Warrior Transition Battalion Handbook “Phoenix Battalion,” March 2012,
established guidance that each Soldier within 10 duty days of being assigned/attached to the
WTB will “in-process” through the SFAC and complete a needs-based assessment with the
Information and Referral (I&R) Coordinator. Upon completion of the assessment, the I&R
Coordinator makes appropriate referrals for services within the SFAC to ensure the Soldier’s
immediate individual and/or family needs are met.

The SFAC Director explained that designated staff was assigned to work one-on-one with
National Guard and Reserve Soldiers on issues specific to their individual component. The staff
also coordinated with the Guard and Reserve Centers on base to get Soldiers additional resources
as needed.

Soldiers and medical/ non-medical support staff conveyed positive comments towards the SFAC
services and resources. Specifically, they mentioned that the SFAC staff was “amazing,” and
“awesome,” they always “find the answers to your questions,” and they “offer everything anyone
would need.”

Despite the proximity of the SFAC to the WTB, we also were informed that some Soldiers were
not aware of its programs and/or benefits, and did not take full advantage of the resources that
were available to them.

A.1. Conclusion
The SFAC served as the centralized resource for educating Soldiers and their Families or
Caregivers on the variety of services available to assist them in their recovery and transition
process. The JBLM WTB requirement for Soldiers to process through the SFAC appeared to
have a positive impact for those Soldiers and Families who utilized the services. Additionally,
we recommend that the U.S. Army Installation Management Command continue to fully support
SFAC services and assistance to Soldiers and their families as they transition back to duty or
civilian life. Finally, the WTB should continue efforts to increase Soldiers’ awareness of the
multiple SFAC and other resources and assistance available to them.




                                               17

Assessment of DoD Wounded Warrior Matters -                           Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                            May 31, 2013

A.2. Implementation of the Comprehensive Transition Plan
Scrimmage
Soldiers met regularly with the assigned Triad of Care team members and other support staff to
discuss the individual Soldier’s potential for further progress and identified concerns that could
adversely affect their recovery and transition. As a result, Soldiers and the Triad of Care team
members were able to develop an individualized course of action to address each Soldier’s
recovery needs and better facilitate his or her transition as part of the Soldiers Comprehensive
Transition Plan.

A.2. Background
According to the U.S. Army Medical Command Policy Guidance 09-011, “Comprehensive
Transition Plan (CTP) Policy,” March 10, 2009, all Soldiers assigned or attached to a WTU will
begin their comprehensive transition plan within the first 30 days of assignment. The plan
focused on the Soldier’s future and included all applicable dimensions of a Soldiers life: health,
profession, military, education, personal, spiritual and family. The plan was the Soldier’s plan; it
did not belong to the chain of command or the health care providers. Soldiers were accountable
for meeting their goals; chain of command and healthcare providers would provide the support
and counseling to assist the Soldier.

Subsequent to our visit, Warrior Transition Command implemented new guidance related to the
Comprehensive Transition Plan (CTP), “Comprehensive Transition Plan Policy and CTP
Guidance (CTP-G),” December 1, 2011. In addition, U.S. Army Medical Command Policy
Guidance 11-098, “Comprehensive Transition Plan (CTP) Policy” was updated to formalize the
review process that facilitates the Soldier’s progression through the WTU/CBWTU.

The new CTP-G established baseline standards for executing the CTP and defined roles and
responsibilities for the WTB leadership, Triad of Care, and the interdisciplinary team. It also
standardized processes and procedures for execution of the CTP, and described the CTP as a
dynamic living plan of action that focuses on the Soldier’s future, that is holistic, and
encompassed the six domains of strength: career, physical, emotional, social, family, and
spiritual. The Soldier, as the owner of the CTP, was empowered to take charge of his or her own
transition and was accountable for developing and achieving his or her goals.

The CTP scrimmage is a formal meeting with the Soldier’s interdisciplinary team that uses the
six domains of strength to develop and refine a future oriented transition plan. Follow on
scrimmages are designed to engage the Soldier in finalizing identified sub-goals and supporting
action statements for their time in the WTU/CBWTU and the future. Subsequent scrimmages
are executed every 90 days. (See Appendix E, for additional steps in the CTP process)

The minimum required attendees at the scrimmage were the Soldier, Squad leader/Platoon
Sergeant, Nurse Case Manager (NCM), and the Licensed Clinical Social Worker (LCSW).
Other staff may be invited to attend to support the Soldier, such as Occupational/Physical
Therapy, Primary Care Manager, and SFAC representatives. Families were invited and
encouraged to attend.



                                                18

Assessment of DoD Wounded Warrior Matters -                               Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                May 31, 2013

The CTP was designed to allow each Soldier to customize his or her recovery process, which
enabled them to set and reach their personal goals with the support and guidance of the
interdisciplinary team. The Soldiers’ needs would drive the makeup of the interdisciplinary team
of clinical providers and non-clinical leaders/supporters who played a positive and active role in
the Soldier’s transition plan. Ultimately the Soldier was responsible for the success of the
Transition Plan. The Scrimmage and Transition Review Timeline is shown in Figure 4.

                     Figure 4. Transition Review Timeline and Scrimmage




Source: Warrior Transition Command, Comprehensive Transition Plan Policy and Guidance – December 1, 2011

A.2. Discussion
During our visit to JBLM, the team observed a scrimmage where all members of the Soldier’s
interdisciplinary team were present, to include the Soldier. The LCSW led the scrimmage and
also documented the Soldier’s action plan based on the six domains. Dialogue was constructive
among all attendees, and the Soldier was an active participant in discussion of his or her
individual goals and activities, and identified areas where assistance might be needed. The NCM
was especially familiar with all aspects of the Soldier’s medical treatment needs. Information
was also captured electronically by the squad leader who would finalize and review the action
plan again with the Soldier prior to signing.

Many of the Soldiers we interviewed had positive things to say about their involvement in the
CTP Scrimmage process. Their statements included:

    •	 The process was good; it forced you to lay everything out and made you look hard at
       yourself. It also “simplified everything,” kept you on track, and helped you prioritize.

    •	 It was beneficial, and as a result of the reviews, things actually got done with regard to
       my medical needs.


                                                   19

Assessment of DoD Wounded Warrior Matters -                            Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                             May 31, 2013

    •	 “It brings all the people I need together…it blends the WTB/discipline side with the
       medical side…It sets goals for the short-term, mid-term and long-term and gives me the
       “big picture” which I am not able to figure out myself.” “You can set the goal but if you
       are not motivated it is a senseless process and does not force you to do anything.”

   •	 One National Guard Soldier stated that overall the processes are goal oriented for the
      Soldiers. He said, “The idea of setting goals as your end-state works well because it is
      your plan so you have something to strive for.” He mentioned that his new squad leader
      actually sits and reviews the CTP, makes notes, and addresses his issues with him.

The Company Commander conveyed that the process for the CTP was a living, breathing
document and could be adjusted as needed. Additionally, another senior WTB official explained
that the CTP was a valuable tool, offering focus for the Soldier. He further stated that a lot of the
Soldiers are young and lack “life experiences” to guide them. The CTP forces Soldiers to look
forward at the short/long term goals. The senior leader further explained that “if Soldiers don’t
succeed at the WTB, they are at fault,” because there are so many opportunities for them with
activities, jobs and school.

A.2. Conclusion
The Comprehensive Transition Plan, while mandatory for all Soldiers upon entrance to the
WTB, served as a living document for Soldiers as they began to identify and develop individual
goals and resources needed for their recovery and transition. Additionally, the Comprehensive
Transition Plan Scrimmage used by the WTB was an interdisciplinary team process that focused
on the six domains of strength, and was designed to engage the Soldier in identifying goals for
their time in the WTB and the future.

This noteworthy practice appeared to be well established within the JBLM WTB in providing an
interdisciplinary approach to meeting Soldier’s transition goals and needs. We believe that the
Warrior Transition Command should periodically evaluate the policy guidance and practices
related to the Comprehensive Transition Plan to ensure ongoing effectiveness throughout the
Army Warrior Transition Command.




                                                 20

Assessment of DoD Wounded Warrior Matters -                                           Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                            May 31, 2013

A.3. Co-Location of Social Workers at the Warrior Transition
Battalion
Social Workers’ offices were co-located at the Warrior Transition Battalion headquarters and
barracks where Soldiers reside. As a result, Social Workers were readily accessible to the
Soldiers they were assigned to for evaluation and therapy. Furthermore, the accessibility of the
Social Workers provided a direct interface with the Soldiers and established a solid support
system to enhance and support the Soldier’s recovery and transition.

A.3. Background
The Office of the Surgeon General Medical Command Policy Memo, 10-047, “Warrior
Transition Unit (WTU) Behavioral Health (BH) Risk Assessment and Comprehensive
Assessment Policy,” July 13, 2010, states that all Warriors in Transition (WT) will receive a BH
risk assessment within 24 hours of attachment or assignment to a WTU and that ongoing BH risk
assessment and care management will be a standard of WT care.

Additionally, the policy required the WTB Clinical Social Worker to conduct the comprehensive
BH assessment, ongoing BH risk assessment, care management, and support to the Family/
Caregivers regarding behavioral health. According to the current Comprehensive Transition
Plan Policy and Guidance, CTP-G, December 1, 2011, the Licensed Clinical Social Worker
(LCSW) was defined as the behavioral health expert and consultant to the command.

A.3. Discussion
This was the first WTB the team observed at which LCSWs were embedded in the WTB
performing as the primary mental health providers for the Soldiers. LCSWs were aligned to one
of four WTB companies, and were physically located in the WTB where Soldiers reside. Based
on previous site assessments, the team identified the co-location of LCSWs within the JBLM
WTB companies as a “Best Practice.”

A lead LCSW was assigned to each WTB company to evenly distribute workload and also to
provide coverage for the Company. Additionally, the LCSWs stated that the co-location was
effective from a safety standpoint and for meeting mandatory training requirements. One LCSW
provided an example where a Soldier called the hotline, and within minutes everyone was
working together to best meet the immediate needs of the Soldier.

The LCSWs were available 24/7 for the Soldiers, and they were also responsible for seeing all
patients who arrived by medical evacuation 23 to JBLM and for conducting Suicide Risk
Assessments. One LCSW explained that within 5 days of the Soldiers arrival they were required
to complete a full psychosocial workup on the Soldier. Furthermore, within the first 30 days
they held the Soldiers’ initial CTP Scrimmage where the team met with each Soldier to develop
their individual treatment plans.



23
     Medical evacuation is defined as transporting a patient to a place where medical care is available.



                                                            21

Assessment of DoD Wounded Warrior Matters -                          Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                           May 31, 2013

In addition, the LCSWs were involved in direct therapy, group therapy and referrals, and were
also engaged in the spouse PTSD support group. Not only did they support the Soldiers and
Families, they also attended Company meetings, Triad of Care and High Risk meetings, and
resiliency care conferences in addition to providing support to the Battalion staff.

A.3. Conclusion
Alignment of the LCSWs within the WTB companies as primary mental health providers was an
effective practice and a model that worked well at the JBLM WTB. This practice promoted
collaboration among the interdisciplinary team members, enhanced communications, and
ensured safety as the Soldier progressed through the healing, recovery and transition process. As
outlined in the recently published CTP guidance, the LCSW was instrumental in providing
support and addressing the social and behavioral health needs for the Soldiers and their families.
The Warrior Transition Command should continue to promote having LCSWs embedded in the
WTB, physically proximate and closely coordinated with NCMs and other WTU staff, where
feasible.




                                               22

Assessment of DoD Wounded Warrior Matters -                       Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                        May 31, 2013



Observation B. Noteworthy Practice for Madigan
Army Medical Center – Madigan Healthcare
System
At the time of our assessment, we observed a noteworthy practice that Madigan Army Medical
Center had instituted with respect to providing quality services for Soldiers. That practice
included:

B.1. Equal Access to Care

We believe this practice has already shown benefits and will continue to improve and enhance
the recovery process for Soldiers and their transition from the Joint Base Lewis-McChord WTB.




                                              23

Assessment of DoD Wounded Warrior Matters -                                  Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                   May 31, 2013


B.1. Equal Access to Care
Based on our interviews with JBLM WTB Soldiers and WTB support staff we determined that
there was no difference in access to medical care for Active and Reserve Component Soldiers at
Madigan Army Medical Center.

B.1. Background
In May 2010, Senator Ron Wyden and Congressman Kurt Schrader both of Oregon requested
that we investigate medical treatment entitlements for all Guard and Reserve Soldiers at all
Warrior Transition Units and mobilization and demobilization sites. As part of our ongoing
assessment project, the DoD IG remained focused on the concerns regarding the management of
Reserve Component (RC) 24 Soldiers in the Warrior Transition Units (WTUs).

At the time of our site visit there were 451 Soldiers assigned or attached to the WTB at JBLM;
207 Active Duty, 168 National Guard, and 76 Reservists. Between June 2007 and December 31,
2012, a total of 2,697 Soldiers had transitioned through the JBLM WTB; 1,482 Active Duty, 826
National Guard, and 389 Reserve Soldiers.

B.1. Discussion
We interviewed 26 Active Duty, 27 National Guard, and 7 Reserve Soldiers who were assigned
or attached to the JBLM WTB. One National Guard Soldier commented that “no one knows the
difference between Active and Guard….unless you tell them – they are all Wounded Warriors
and should be treated the same.” Several other Soldiers commented that there was no noted
difference in treatment of Active versus Guard/Reserve or combat wounded versus non-combat
wounded.

During several individual Soldier interviews, one Soldier stated they should be treated the same
regardless of component or how the injury occurred. A different Soldier stated that the WTB has
priority over everyone, and felt that differences should depend on the Soldier’s needs, and the
worst should have the preferences. Lastly, one Soldier commented that they get equal access to
care, but it is a question as to whether the Warriors use it to their benefit.

A WTB primary care provider explained that there were no differences in access or medical
treatment between Active, Guard and Reserve Soldiers among the WTB providers, or hospital
staff, and that most staff do not ask Soldiers which component they belong to.

Finally, the group of social workers that we interviewed all agreed that all Soldiers in the WTB
were getting good medical and behavioral health care. One social worker noted that about
seventy percent of the Soldiers they see had behavioral health issues, which was their primary
focus.




24
 The Army consists of two distinct and equally important components, the Active Component and the Reserve
Component (Army National Guard and the Army Reserve).



                                                     24

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                          May 31, 2013

Subsequent to our site visit to the WTB at JBLM, we met with the National Guard Bureau Chief
Surgeon on November 15, 2012 and the Oregon National Guard Joint Forces Headquarters on
November 28, 2012. During these meetings, they expressed no concerns about the management
of Guard and Reserve Soldiers with respect to their access to WTU resources.

B.1. Conclusion
Overall, the Soldiers interviewed stated they received equitable access to medical care for the
condition(s) that required their assignment or attachment to the WTB. Furthermore, the medical
and administrative personnel supporting the WTB indicated equitable access to medical care was
provided to Active and RC Soldiers.

Based on our assessment, we concluded that Active Duty and RC Soldiers had received equal
access to medical care while assigned to the WTB at JBLM.

We recommend continuing analysis of patient satisfaction surveys in order to detect problems, if
any, and appropriately address them as they occur.




                                               25

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              26

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                            Part II - Challenges





                                              27

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              28

Assessment of DoD Wounded Warrior Matters -                          Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                           May 31, 2013


Observation C. Challenges for Joint Base Lewis-
McChord Warrior Transition Battalion
We identified four challenges that should be addressed by the Battalion’s leadership and staff to
ensure the most successful and effective support for the care, healing, and transition of wounded,
ill, and injured Soldiers. These challenges are identified as follows:

C.1. Staff Training in Support of Soldier Recovery and Transition

C.2. Staffing and Change of Station Requirements for Warrior Transition Battalion Leadership

C.3. Comprehensive Transition Plans

C.4. Soldiers’ Education, Employment and Internships

We believe that improvements in addressing these challenges will increase the effectiveness of
the JBLM Warrior Transition Battalion leadership and staff performance in providing quality and
timely care and services that facilitate Soldier recovery and transition.




                                                29

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              30

Assessment of DoD Wounded Warrior Matters -                                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                  May 31, 2013


C.1. Staff Training in Support of Soldier Recovery and
Transition
Personnel involved in the management of WTB Soldiers did not consistently receive training
prior to assuming WTB cadre duties. Additionally, cadre who had received the training offered
believed they needed additional training to address the diverse range of Soldiers’ medical and
management needs.

Some newly assigned WTB cadre did not receive training prior to or soon after arrival to the
WTB for a number of reasons, one of which included the slow administrative processing time to
approve Guard and Reserve positions. In addition, the current training programs did not provide
sufficient in-depth information to help them deal with the full range of medical and management
needs of their assigned Soldiers.

As a result, WTB personnel working with the Soldiers were at risk of not having the requisite
knowledge and capability to effectively assist the Soldiers and their families in their healing and
transition process.

C.1. Background
Those responsible for the medical care and management of Soldiers were required to complete
online and resident courses. Operational Order (OPORD) 07-055, “Implementation of the Army
Medical Action Plan (AMAP),” 25 June 2007, established the development and delivery of
standardized training for the staff of Warrior Transition Units with special focus on the “WTU
Triad.” Distributed learning modules were developed and deployed for training in August 2007,
followed by resident courses in October 2008.

WTB staff were required to attend a 2-week (10-day) course designed to provide standardized
training for newly assigned staff to a WTB. Common Core courses included, but were not
limited to:

     •   Comprehensive Transition Planning and Risk Assessment and Tools
     •   Overview of Medical and Physical Disability System
     •   Personnel Assignments and Utilization
     •   Personnel Actions Overview, and IG issues/concerns
     •   Life Coaching Skills, Psychology of Injury, Suicide Prevention
     •   Medical Terminology, Psychotropic Medications, PTSD for non-medical personnel.

C.1. Discussion
The WTB staff played a pivotal role in assisting Soldiers with their healing and transition. Thus,
it was imperative that the training and support provided to the staff was comprehensive,


25
  The Army Medical Action Plan (AMAP) establishes an integrated and comprehensive continuum of care and
services for Warriors in Transition. The AMAP was developed in 2007, and included ten “Quick Wins” for
implementation across the Army. Item six identifies development of training and doctrine.



                                                    31

Assessment of DoD Wounded Warrior Matters -                                    Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                     May 31, 2013

informative and timely. JBLM WTB staff suggested several areas and topics where training
could be improved, to include:

     •	 “Training should take place before taking on WTU responsibilities”
     •	 “Course could be longer and include more behavioral health, role playing scenarios, and
        how to communicate effectively through counseling sessions with Soldiers”
     •	 “Training on command and control and medical management issues and what each of the
        separate entities do”
     •	 “Training on specific Guard and Reserve administrative requirements”
     •	 “Stress reduction for staff”
     •	 “Team training exercises”

Several squad leaders stated that the two-week training was adequate. However, one squad
leader explained that they should be trained prior to taking on any responsibilities involving the
direct management of WTB Soldiers.

Another squad leader commented that he shadowed another squad leader for about 2 months and
felt it was informative and helpful. He further commented that the 2-week course needed to be
more in-depth and longer because each of his Soldiers had a different issue and it was all “trial
by fire” in learning how to deal with them. This particular squad leader explained that he felt his
position was one of the most challenging jobs in the Army, noting that in a regular unit, “you
might have one or two out of 40 guys with complex issues; here, all 15 have some issue.”

Several individual Soldiers commented on the cadre training. One Soldier commented that the
cadre should be trained before they come. Another Soldier mentioned that turnover of staff was
quick. He further explained that those cadre not trained early on were not as prepared to provide
direction to the Soldiers.

The WTB senior leadership explained that not all WTB cadre and staff received the two week
training prior to assuming duties in the WTB, and some did not receive training until six months
(or after one quarter of their two-year tour had been completed) after their arrival. The
leadership commented that the process to source Guard and Reserve personnel was through the
Department of the Army Mobilization Processing System, 26 which was slow and did not allow
tour overlaps or “right seat/back seat” training opportunities.

WTB leadership commented that an estimated sixty percent of the Soldiers assigned to the JBLM
WTB had behavioral health issues, with an estimated forty percent of the Soldiers having PTSD
or TBI. Given the prevalence of these conditions, WTB leadership and staff recognized the need
for additional PTSD/TBI and behavioral health training opportunities. Specifically, they
recommended:



26
  Department of the Army Mobilization Processing System – Army (DAMPS-A) is an unclassified web application
to initiate, track, and approve reserve component (RC) volunteer packet requests for contingency active duty for
operational support (CO-ADOS) tours.



                                                      32

Assessment of DoD Wounded Warrior Matters -                          Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                           May 31, 2013

   •	 “Training in behavioral health disorders to include PTSD, muscular-skeletal conditions,
      and appropriate pain management associated practices.”

   •	 “Focused training needs for staff in areas such as Anger Response Training, Non-violent
      crisis intervention training, and safety training in regards to deescalating a situation.”

   •	 “Offer a Behavioral Health 101 for primary care managers (PCM), nurse case managers
      (NCM), and squad leaders to address fears and concerns about some of the varied types
      of behavioral health issues encountered; address Soldiers’ medications, their side effects
      and the potential for unusual reactions that could occur when taking certain medications.”

   •	 Staff Resiliency training: several Platoon Sergeants mentioned that they would be
      attending the Master Resiliency Training Course in Philadelphia and would provide
      “train-the trainer” for other staff in the WTB.

A senior NCM acknowledged the need for additional training in dealing with PTSD/TBI and
Behavioral Health patients, but noted that “you are still never prepared for some of the types of
issues these Soldiers have.” She referred to an experience in which a Soldier became out of
control, stating you “just have to pull from life experiences” as you handle those types of
Soldiers; there is no real way to be prepared because they are all different.

C.1. Conclusion
Appropriate and timely training for WTB staff is required to ensure the most effective and
efficient management and support of the Soldiers’ mission to heal and transition. Therefore,
attending training prior to, or in route to their assignment at the WTB would ensure staff had the
appropriate tools to be successful in managing and providing support to Soldiers under their
supervision.

While a relatively comprehensive training program does exist for WTB leadership and NCMs, it
is important to ensure that the program provides curricula to address specific behavioral health
and other issue areas important to perform Soldier support needs. Classes should reflect realistic
scenarios and facilitate discussion regarding Soldier care and management within the WTB
environment.

C.1. Recommendations, Management Comments, and Our Response
       C.1.1. Commander, Human Resources Command in coordination with the
       Commander, Warrior Transition Command develop policy guidance to direct
       Active and Reserve Component Soldiers who volunteer for WTB leadership and
       cadre positions to attend WTB cadre and staff training prior to, or in route, to their
       assignment at the WTB.

Office of the Surgeon General, U.S. Army Medical Command
Response
The Office of the Surgeon General, U.S. Army Medical Command concurred with comment to
our recommendation. The Commander, Human Resources Command issued MILPER Message


                                                33

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                          May 31, 2013

12-006, Warrior Transition Unit (WTU) Cadre Assignments, on 9 January 2012 requiring
approved cadre to attend the WTU Cadre Resident Course enroute to assignment whenever
possible. When not feasible to attend the course enroute, attendance will be completed 90 days
of assuming a cadre position.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. However, in response to our final report, we
request that the Commander, Warrior Transition Command provide a copy of the WTC MILPER
Message 12-006, Warrior Transition Unit (WTU) Cadre Assignment.

       C.1.2. Commander, United States Army Medical Department Center and School in
       coordination with the Commander, Warrior Transition Command, evaluate the
       effectiveness of the WTB leadership and cadre training program to ensure that the
       course for cadre includes a robust training curriculum and ongoing educational
       training opportunities. Also, to ensure that the Triad of Care team members and
       WTB support staff are appropriately prepared to deal with the unique mission
       challenges of helping Soldiers to recover, and transition back to active duty or
       return to civilian life.

Office of the Surgeon General, U.S. Army Medical Command
Response
The Office of the Surgeon General, U.S. Army Medical Command concurred with comment to
our recommendation. The Surgeon General reported that the U.S. Army Medical Department
Center and School continually evaluates the effectiveness of the WTB leadership and cadre
training program through the use of end-of-course surveys, curriculum reviews, and informal
collaboration with the Warrior Transition Command (WTC). In addition, several other program
tools are in development and projected for implementation over the next several years. The
Surgeon General stated that in FY12, MEDCOM completed a manpower review and analysis
which highlighted the requirement for increased manpower based on the large instructor-to­
student ratios and the lack of an Army-approved Table of Distribution and Allowances (TDA).
The U.S. Army Medical Department Center and School is awaiting approval for authorization
and increased manpower from U.S. Army Manpower Analysis Agency.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. However, in response to our final report, we
request that the Commander, U.S. Army Medical Department Center and School upon approval
by the U.S. Army Manpower Analysis Agency provide a copy of the new manpower
authorization.

Additionally, we request that the Commander, U.S. Army Medical Department Center and
School provide an update on the impact of proposed staffing levels and reduced instructor-to­
student ratios; analysis of findings from curriculum review; post-graduate survey development
and status of the distributed learning orientation course implementation. Furthermore, provide



                                               34

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                         May 31, 2013

an update of any further course work that is in development or being implemented based on
ongoing internal reviews.

Finally, in response to our final report, we request that the Commander, Warrior Transition
Command provide a synopsis of the effectiveness of adding civilian Transition Coordinators
(TC) in each of 17 WTBs to support employment, education, and internship program
opportunities for Soldiers.




                                              35

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                         May 31, 2013

C.2. Staffing and Change of Station Requirements for Warrior
Transition Battalion Leadership
Implementation of recent Army policy changes may adversely impact the number and
predictability of WTB personnel serving to support Soldiers assigned or attached to the WTB.
This policy directs that Reserve Component Soldiers who volunteer for WTB leadership
positions shift from temporary to permanent change of station status.

The financial savings from this assignments policy change will largely be borne by Reserve
Component volunteers, and may reduce the numbers of Reserve Component personnel who
volunteer for WTB positions.

This may lead to insufficient numbers and predictability of Reserve Component personnel to
provide effective management support for the care and healing of WTB Soldiers in transition.

C.2. Background
Reserve Component (RC) Soldiers serving in WTB cadre or leadership positions were assigned
under the All Army Activities (ALARACT), 27 053-2008, “Authority for Issuing Temporary
Change of Station (TCS)/Temporary Duty (TDY) Orders beyond 180 Days in Support of
Contingency Operations.”

“Department of the Army Personnel Policy Guidance for Oversees Contingency Operations,”
July 1, 2009 outlines the assignments process for RC Soldiers who desire to serve beyond their
24 consecutive months of mobilization, to include volunteer positions, under the authority of
Title 10 USC 12301(d), Contingency Operations Active Duty for Operational Support (CO­
ADOS). In addition, ALARACT 210/2009, “Warrior Transition Unit (WTU) Personnel
Assignment and Utilization Policy,” July 2009, provides guidance to Personnel and senior
Commanders for nomination, selection approval, and assignment of cadre members.

C.2. Discussion
At the time of our assessment,* the JBLM WTB population consisted of 451 wounded, ill, or
injured Soldiers. The majority of WTB cadre and leadership positions were filled by Officer and
Enlisted Active and RC Soldiers who volunteered to serve as cadre for one year providing
leadership and direction to wounded, ill, and injured Soldiers. Table 2 illustrates the
assigned/authorized WTB staff as of June 2011.




27
  ALARACT is an acronym for All Army Activities (Distribution)
* See Appendix A of this report



                                                    36

Assessment of DoD Wounded Warrior Matters -                               Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                May 31, 2013


                   Table 2. Assigned/Authorized WTB Staff as of June 2011
           June 2011                          Authorized                            Assigned
Active                                            60                                   61
Guard                                             29                                   21
Reserve                                           26                                   23
Source: Data provided by JBLM Warrior Transition Battalion, November and December 2012.

The RC Soldiers were selected for assignment to the WTB on a temporary duty status, normally
for one year with the option to apply for an extension based on the Commander’s discretion and
the availability of CO-ADOS funds for RC Soldiers eligibility. Additionally, most, if not all RC
Soldiers lived in other states, temporarily leaving their families and jobs to volunteer for the
WTB staff positions.

Team interviews with WTB leadership revealed that the recent Permanent Change of
Station/Temporary Change of Station (PCS/TCS) policy change could adversely impact the
recruitment and predictability of RC Soldiers to fill staff positions within the WTB.
Furthermore, if a funding solution is not permanent or constant, then RC Soldiers may not
continue to volunteer for WTB positions.

Subsequent to our visit, the Department of the Army issued Executive Order, 079-13, “Warrior
Care and Transition Program (WCTP) CO-ADOS, Exemption Approval and 730-Day CO­
ADOS Order Implementation Guidance.” The Executive Order approved a full exemption of the
WCTP CO-ADOS requirements for Warrior care cadre and staff, and approved the use of 730­
day CO-ADOS orders in an effort to assist in recruitment of RC Soldiers and minimize cadre
turnover.

C.2. Conclusion
Changes in Army policy requiring RC Soldiers to PCS when accepting WTB cadre or leadership
positions had the potential to not only impact the number of RC Soldiers volunteering for WTB
positions, but could also affect the predictability of the candidate pool. The WTB was dependent
upon a number of RC Soldiers to volunteer for a variety of leadership positions within the WTB.

Without proper planning and oversight of future WTB staffing, there is the potential for gaps in
WTB leadership positions that could have a negative impact on the care, management, and
transition of Soldiers assigned or attached to WTBs.

C.2. Recommendations, Management Comments, and Our Response
        C.2.1. The Assistant Secretary of the Army, Manpower and Reserve Affairs in
        coordination with the Commander, Warrior Transition Command:

        C.2.1.a. Evaluate current and future manning requirements of Warrior Transition
        Units to ensure they are appropriately staffed to meet the mission and have
        experienced cadre in place to effectively manage and support Soldiers during their
        healing and transition.


                                                   37

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                         May 31, 2013


Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comment to
our recommendation. The Surgeon General reported that the Warrior Transition Command
conducts periodic reviews of Warrior Transition Unit (WTU) Table of Distribution and
Allowance (TDA). The Surgeon General further explained that WTUs are structured based on
forecasted Warrior in Transition (WT) population. The forecast models Pre-Deployment,
Theater Evacuation, and Post-Deployment gains into the WTU population while accounting for
actual deployment schedules into the future. Additionally, this forecast process ensures WTUs
are adequately designed to support WT population increases on installations, and adjust
manpower to those installations where WT populations are trending downward.

The Surgeon General stated that the Warrior Transition Command received approval to continue
to fill Contingency Operation for Active Duty Operational Support positions as required, and use
2-year permanent change of station orders instead of 1-year orders. Finally, they reported that
the Warrior Transition Command is in the process of revising the cadre assignment policy to
ensure best-qualified personnel are selected.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. However, in response to our final report, we
request that the Commander, Warrior Transition Command provide a copy of the revised signed
policy on WTU cadre assignments.

       C.2.1.b. Conduct an analysis to determine if Warrior Transition Units/Warrior
       Transition Battalions have adequate personnel resources and funding to support
       appropriate manpower levels, ongoing staff training requirements, and support
       services in order to maintain optimal staffing levels and ratios.

Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comment to
our recommendation. The Surgeon General reported that in December 2012, the US Army
Manpower Analysis Agency (USAMAA) validated the WTU Ratio Determination Model for use
in determining manpower requirements for all WTUs and Community Care Units. In addition,
they reported that USAMAA approved the model application for 3 years. The Surgeon General
further explained that based on the significant decrease in supplemental funding now through
FY15, funding for Reserve Component Soldiers remains an issue. Furthermore, Warrior
Transition Command has requested that the Department of the Army consider an alternate
sourcing solution to continue required Reserve Component support.




                                              38

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                         May 31, 2013


Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. However, in response to our final report, we
request that the Commander, Warrior Transition Command provide an update on the Department
of the Army’s alternate sourcing solution response to address the requirement for continued
Reserve Component Soldiers support in WTUs.




                                              39

Assessment of DoD Wounded Warrior Matters -                           Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                            May 31, 2013


C.3. Comprehensive Transition Plans
Some Soldiers and Triad of Care members were not using the Comprehensive Transition Plan
(CTP) in a manner that was consistent with the standards required by Army policy as the
planning tool necessary to support successful recovery and transition goals of Soldiers.

This occurred because some Soldiers were not taking advantage of the benefits of the CTP. In
some cases, Soldiers were not truthful or accurate with the information they provided to the CTP;
feedback by some squad leaders was ineffective and untimely; and operation of the automated
CTP on the Army Knowledge Online website was cumbersome, unreliable, and time consuming.

As a result, there were WTB Soldiers who were not receiving the full benefits of the CTP
process as intended to help support their recovery and transition goals, thus delaying their
transitions and putting at risk its success.

C.3. Background
The Office of the Surgeon General Medical Command Policy Memo, 09-011, “Comprehensive
Transition Plan (CTP) Policy,” March 10, 2009, stated that all Soldiers assigned or attached to a
Warrior Transition Unit (WTU) will begin their comprehensive transition plans within 30 days
of assignment. The policy also addressed the guidelines for developing the clinical and non-
clinical plans of care which support the CTP.

According to the JBLM WTB Standard Operating Procedure, “Comprehensive Transition Plan,”
December 14, 2010, to facilitate the standardization, visibility, and overall effectiveness of the
CTP, the Warrior Transition Command developed the CTP automation system within the Army
Knowledge Online (AKO). The Army’s Enterprise Portal, AKO is a primary component of the
Army Knowledge Management (AKM) strategy and the Army Transformation. AKO provides
corporate internet services and single web portal to the United States Army. AKO provides the
U.S. Army with email, directory services, portal, single sign on, blogs, file storage, instant
messenger, and chat.

The March 2011 CTP Policy provided interim guidance for the development and implementation
of the Soldier’s CTP and automated CTP (aCTP) documentation tool. It stated that the primary
focus of the CTP was to provide a strategic tool that supported the Soldiers’ goals to heal and
successfully transition back to the force or to separate from the Army. Furthermore, the primary
function of the WTU team was to assist in realistic goal development, provide support to the
Soldier, and to validate the Soldiers’ CTP. In addition, the guidance stated that Soldiers are
encouraged to utilize WTU assets to assist them in advancing their current career or preparing
for a career change, while undergoing medical treatment.

The Office of the Surgeon General Medical Command Policy Memo, 11-098, “Comprehensive
Transition Plan (CTP) Policy,” November 29, 2011, updated policy and formalized the CTP
process for Soldiers assigned or attached to WTUs. The policy describes the CTP as a dynamic
living plan of action that focuses on the Soldier’s future. As owner of the CTP, the Soldier is
empowered to take charge of his or her own transition and is ultimately accountable for
developing and achieving his or her goals. Appendix E outlines the six processes of the CTP.



                                                40

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                         May 31, 2013

C.3. Discussion
In Part 1, A.2., “Noteworthy Practices,” we recognized JBLM WTB for their implementation of
the CTP Scrimmage. It is important to note, that during our site assessment, JBLM was piloting
the CTP process which has since been fully implemented at all WTU/WTBs.

The automated CTP (aCTP) was an on-line assessment tool that a Soldier completed upon
assignment or attachment to the WTB. This initial assessment was then reviewed by the squad
leader and NCM to determine the needs of the individual Soldier. Completion of the aCTP by
the Soldier was an ongoing process requiring weekly updates by the Soldier. Soldiers that we
interviewed offered varying comments about their completion of the aCTP. Specifically:

   •	 “We completed the CTP, but did not receive feedback from leadership.”
   •	 “The online CTP was basically a waste of time, unless you wanted to be harassed.”
   •	 “The automated CTP on AKO was “a joke.” Guys just “click” on things, if they knew
      someone was reading it, they might put forth a better effort.”
   •	 “If the automated CTP was reviewed beyond what they put in, it would be a good tool.”
   •	 “Weekly was too often; bi-weekly would be better.”
   •	 “The AKO was slow and freezes up; was not good because of Information Technology
      issues.”
   •	 “Received feedback once, but believed this was not the case with the majority of the
      Soldiers.”

WTB leadership commented that using the AKO portal to make required entries into the CTP
was cumbersome and slow. Additionally, they explained that completing the CTP was time
consuming and suggested that the frequency of completing the assessment should be changed
from weekly to monthly. Additional comments shared by leadership included:

   •	 One squad leader explained that he conducted monthly counseling and reviewed his
      Soldiers’ goals with them. He was aware that Warriors complained about filling the CTP
      out weekly, but he believed the CTP was beneficial because the squad leaders were also
      able to gain timely updates about their Warriors. He believed it was especially effective
      for the younger Soldiers, because “for some they needed the push.” He further
      commented that if you review the CTP with them and hold them to their goals, they
      actually accomplish things.

   •	 Another squad leader explained that his Soldiers complete their CTPs online every week
      and he personally believed it was a waste of time. There were problems with AKO
      freezing or being slow and it took at least 10 minutes to load one Warrior’s CTP.

   •	 The occupational therapists mentioned that the aCTP could be a better tool if they
      eliminated the redundancy, adjusted the updates to monthly versus weekly, and moved
      the automated CTP from the AKO platform to a more responsive system.

Although several of the comments made about the CTP were therefore negative, there were
several other WTU staff members who commented that the CTP did have a positive effect on the


                                              41

Assessment of DoD Wounded Warrior Matters -                                Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                 May 31, 2013

Soldiers’ recovery and transition, if the Soldiers took the time to fill it out. They explained that
functionally it was improving; however, as leaders, they wanted to have more control of the
frequency of CTP updates based on the Soldiers’ needs. Furthermore, the WTU leaders noted
that effectiveness of the CTP is marginalized because “it is left up to the Soldier,” there was a
lack of incentives to accomplish set goals and no risk of adverse actions for failing to accomplish
set goals.

C.3. Conclusion
The CTP is a tool that assists the Soldier and Triad of Care interdisciplinary team in providing
the best direction for the Soldier’s care and transition. The aCTP self-assessment tool was the
first step in capturing the clinical and non-clinical plans of care. Although there were some
positive comments made about the CTP, several Soldiers and WTB staff complained about the
slowness of the AKO platform used to complete the aCTP. Additionally, Soldiers and staff also
believed that weekly updates of the aCTP were unnecessary.

Since our visit, Warrior Transition Command (WTC) has completed an extensive review of the
CTP process, requesting input from end users on how the plan and system could work better for
them. Additionally, WTC has continued to improve the CTP automation and documentation
capabilities necessary to manage the care and support of Soldiers.

Subsequent to our visit, the WTC formalized the “Comprehensive Transition Plan Policy and
CTP-Guidance (CTP-G),” December 1, 2011. The guidance described that the automated CTP
would move off the AKO platform to the Army Warrior Care and Transition System
(AWCTS). 28 Within AWCTS, the automated CTP would continue to serve as the primary tool
for the execution of the CTP and should play a critical role in the collection and assessment of
Soldier CTP records across the WTC. This was not always the case, however.

C.3. Recommendations, Management Comments, and Our Response
        C.3.1. Commander, Warrior Transition Command:

        C.3.1.a. Complete the migration of the Comprehensive Transition Plan from the
        Army Knowledge Online to the Army Warrior Care and Transition System.

        C.3.1.b. Review the Comprehensive Transition Plan policy and guidance for
        relevance and effective content in supporting Soldier and Family transition needs.

Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comment to
our recommendation. The Surgeon General stated that migration of the Comprehensive


28
  Army Warrior Care and Transition System (AWCTS) is a web-based application hosted at Defense Information
System Agency (DISA) and uses AKO for Common Access Card (CAC) authentication purposes. The system also
has the capability to track each Soldier’s progress.



                                                    42

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                         May 31, 2013

Transition Plan (CTP) from Army Knowledge Online to the Army Warrior Care and Transition
System (AWCTS) was completed in June 2012, in accordance with the timeline provided in
Annex A to WTC OPORD 11-10. The AWCTS consolidates Warrior Care and Transition
related information technology systems into a comprehensive system to manage wounded, ill,
and injured Soldiers and their Families from point of injury to transition.

Additionally, Warrior Transition Command commented that they will review and update CTP
policy and guidance by December 31, 2013. Lessons learned from the field and leaders will be
incorporated to ensure Soldiers and Families receive the best transition assistance and care
possible.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. However, in response to our final report, we
request that the Commander, Warrior Transition Command, provide an updated copy of the
signed CTP policy and guidance, based on their December 2013 review.

       C.3.2. Commander, Warrior Transition Battalion, evaluate the effectiveness of the
       WTB leadership and cadre in actively engaging the Soldiers’ CTP and encourage
       Soldiers’ involvement and adherence to the plan for a successful transition.

Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comment to
our recommendation. The Surgeon General stated that in order to ensure effective engagement
in the Soldiers’ CTP and encourage Soldiers’ involvement and adherence for a successful
transition, the CTP management analyst will provide weekly by name reports to the appropriate
Company Commanders for each Soldier. The report includes those Soldiers exceeding 30 days
without having Phase 1 Goal Setting completed and confirmed by the Commander via the Army
Warrior Care and Transition System (AWCTS); Soldiers Self Assessments not completed in
accordance with designated frequency, and Soldiers Self Assessments not validated by Nurse
Case Managers and by the Platoon Sergeant/Squad Leader. In addition, the Surgeon General
reported that Nurse Case Managers will sign and attach initial scrimmage worksheets to the
Soldiers AWCTS file to serve as a record and facilitate TRIAD collaboration, and the Senior
Nurse Case Manager will ensure compliance with monthly AWCTS reviews.

Finally, the Surgeon General stated that Warrior Transition Command will further evaluate
effectiveness of WTB leadership through the Operational Inspection Program (IP) and command
and staff visits.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. No further action is required.




                                              43

Assessment of DoD Wounded Warrior Matters -                                      Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                       May 31, 2013

C.4. Soldiers’ Education, Employment, and Internships
Program
Some WTB Soldiers were unable to participate in non-Federal employment and internship
opportunities consistent with their transition goals.

Current DoD policy prohibited Soldiers from participating in non-Federal internship programs.
DoD guidance did not reflect recent changes in Public Law that would allow Soldiers to
participate in non-Federal internships.

As a result, Soldiers were not able to take advantage of state or local internships available which
could significantly benefit their individual transition goals.

C.4. Background
The Warrior Transition Command Policy Memo, 09-003, “Warrior in Transition (WT) –
Employment, Education and Internship (EEI) Opportunities,” October 15, 2009, described EEI
as an integral part of a Soldier’s healing and transition. These opportunities expand Soldier
abilities, increase productivity, and orient the Soldier toward a productive and rewarding future.
The policy guidance directed that WTs were restricted to Federal government internships while
still on active duty. Moreover, DoDI, 1000.17, “Detail of DoD Personnel to Duty Outside the
Department of Defense,” April 16, 2008, placed limitations on details 29 for DoD personnel.

Subsequent to our visit, the Warrior Transition Command, released the CTP Policy and
Guidance (CTP-G), December 1, 2011 which outlined that all medically ready soldiers will
participate in adaptive reconditioning and Career and Education Readiness (CER) opportunities
that support his or her CTP during rehabilitation and are within their physical profile guidelines.
The CER has replaced the 2009 EEI opportunities guidance.

Several Federal programs for recovering service members were also available for Soldiers to
participate in. These programs included, but were not limited to:

     •	 Operation Warfighter (OWF), established by the Department of Defense in 2006, is a
        Federal internship program for wounded, ill, and injured service members. The main
        objective of OWF is to place service members in supportive work settings that positively
        impact their recuperation.

     •	 VA Coming Home to Work (CHTW) Program is a Vocational Rehabilitation and
        Employment (VR&E’s) primary early intervention and outreach program. The VR&E
        goal is to assist eligible servicemembers and veterans obtain and maintain suitable
        employment that will not aggravate disabilities.


29
  Pursuant to the DoDI 1000.17, a detail is the “temporary assignment of a military member or DoD civilian
employee to perform duties in an Agency outside the Department of Defense with the intent of returning to the
Department of Defense upon completion of those details.”



                                                        44

Assessment of DoD Wounded Warrior Matters -                                    Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                     May 31, 2013

C.4. Discussion
According to the “Comprehensive Transition Plan Guidance,” March 11, 2011, Soldiers are
expected to participate in appropriate EEI Programs once they reach the rehabilitation phase of
their transition.

During our visit to JBLM we were told that Soldiers who had been engaged in internships with
state and local government agencies were required to relinquish them. Warrior Transition
Command policy guidance directed that Soldiers were restricted to Federal government
internships while still on active duty. This is in addition to the DoDI which also placed
limitations on details of DoD personnel. Therefore, Soldiers could only be able to participate in
Federal internship opportunities.

However, limiting internships to Federally-sponsored training opportunities directly affected
Soldiers’ ability to participate in training activities related to his or her transition interests or
needs. This caused numerous internship opportunities with state and local government entities to
go unfilled and increased Soldiers’ frustration with the transition process. WTB leadership
explained that the restriction to ‘Federal’ only internship programs greatly reduced the
opportunities available to Soldiers and could potentially have an adverse impact on their healing
and individual transition goals.

Staff working with Recovering Soldiers expressed concerns about limitations with respect to EEI
opportunities. Specifically:

     •	 A WTB staff member explained that “Soldiers did not want to pursue education and
        internships out of concern they would not have enough time to finish based on the
        requirements of MEB/PEB process.”

     •	 The Soldier and Family Readiness Center (SFAC) Director pointed out those OWF
        internships with Federal agencies required security clearances which took time to
        complete. She also explained that these clearances needed to be expedited or changed to
        interim clearances so that Warriors who were eligible could work longer at these
        internships.

     •	 Attempts were made for internships to be in line with the Soldier’s military occupational
        specialty 30 or something of professional interest that would be productive for the Soldier
        in their transition.

Several Soldiers expressed concern over the process for internship selections and the
requirements for internship opportunities. Specifically:




30
  The military occupational specialty (MOS) is a code used to identify jobs in the U.S. Army. The numbers
correspond to the career field and the letter corresponds to a particular job in the career field.



                                                       45

Assessment of DoD Wounded Warrior Matters -                            Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                             May 31, 2013


   •	 One Soldier stated that he was “thrown into an internship that he did not get to pick,”
      which he stated felt like punishment to him. He further commented that in order for him
      to feel productive in an internship, he should be placed in something that would correlate
      with what he wanted, which was to go to college to learn to be a mechanic.

   •	 Finally, another Soldier commented that the “policy which requires internships to be
      restricted to DoD jobs needs to be changed.” He explained that “a lot of Soldiers want to
      get into things that do not translate to the DoD, such as working in pet shops.”

C.4. Conclusion
Current instructions limited participation by Soldiers to Federal internship programs, potentially
impairing the Soldiers’ healing and transition goals. Engagement of Soldiers in employment,
education, and internship opportunities during their time in the WTB, and experiences gained
from such opportunities, can positively influence outcomes regarding Soldier’s Career and
Education Readiness transition goals and will affect how they ultimately enter and contribute to
the workforce.

Extending internships to state and local government programs would expand the breadth of
opportunities available to Soldiers and provide them options that are geared to their specific
interests as they plan and prepare for transition to civilian life. Additionally, a Soldier who is
interested in a particular internship may be more likely to stay with that program.

Subsequent to our visit, we were informed that the Office of the Secretary of Defense had drafted
a DoD Instruction which would provide guidance for development and implementation of the
Services on Education and Employment Initiative (E2I) and Operation WARFIGHTER (OWF),
in accordance with Public Law 112-81, December 31, 2011, Section 551, “Employment Skills
Training for Members of the Armed Forces on Active Duty who are Transitioning to Civilian
Life.”

C.4. Recommendations, Management Comments, and Our Response
       C.4.1. Under Secretary of Defense for Personnel and Readiness publish and
       implement DoD guidance for the Education and Employment Initiative for
       expanding internship opportunities for Soldiers assigned or attached to a WTU to
       the maximum extent possible in accordance with the National Defense
       Authorization Act for Fiscal Year 2012, Section 551 of Public Law 112-81,
       December 31, 2011.

Under Secretary of Defense for Personnel and Readiness
The Assistant Secretary of Defense Health Affairs responding on behalf of the Acting Under
Secretary of Defense for Personnel and Readiness concurred with comment to our
recommendation. The Assistant Secretary stated that the Office of Warrior Care Policy (WCP)
published DoD Instruction (DoDI) 1300.25, “Guidance for the Education and Employment
Initiative (E2I) and Operation WARFIGHTER (OWF)” on March 25, 2013. They further
commented that WCP is now in the implementation phase of this recommendation and is
actively working with the Military Departments to develop processes and procedures for



                                                 46

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                         May 31, 2013

achieving the goals of the DoDI, and in meeting legislative requirements of the National Defense
Authorization Act for Fiscal Year 2012, Section 551, of Public Law 112-81, December 31, 2011.

Our Response
The Assistant Secretary of Defense Health Affairs comments are responsive and meet the intent
of the recommendation. We have obtained a copy of DoDI 1300.25, “Guidance for the
Education and Employment Initiative (E2I) and Operation WARFIGHTER (OWF)” issued on
March 25, 2013, and acknowledge the efforts being made to address job training, and
employment skills training, including apprenticeship programs. However, in response to our
final report, we request that the Assistant Secretary, provide an update on the timeline for the
implementation of E2I and OWF, and describe how this initiative will be continuously monitored
to ensure wounded, ill, and injured service members are afforded education, employment and
internship opportunities for a successful transition.

       C.4.2. Commander, Warrior Transition Command, update command policies and
       provide interim measures to allow Soldiers assigned or attached to a WTU to
       participate in internship opportunities to the maximum extent possible in
       accordance with the National Defense Authorization Act for Fiscal Year 2012,
       Section 551 of Public Law 112-81, December 31, 2011, in supporting the Soldier’s
       Career and Education Readiness transition goals, as appropriate.

The Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comments to
our recommendation. The Surgeon General stated that the Warrior Transition Command is
awaiting implementing guidance from Assistant Secretary of the Army, Manpower and Reserve
Affairs and Army G-1 with regard to Directive-type Memorandum 12-007. They further
commented that Warrior Transition Command is prepared to update command policies and
procedures to support private internships as soon as this option has Army approval and
implementing guidance.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. However, in response to our final report, we
request the Commander, Warrior Transition Command provide copies of signed command
policies and procedures supporting Soldiers education, employment and private internship
opportunities as they become available. In addition, we request that the Commander, Warrior
Transition Command describe how the approved policies and procedures will be implemented
throughout Warrior Transition Units.




                                              47

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              48

Assessment of DoD Wounded Warrior Matters -                        Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                         May 31, 2013



Observation D. Challenges for Madigan Army
Medical Center – Madigan Healthcare System
We identified two challenges related to WTB Soldier medical care provided by Madigan Army
Medical Center which it should address in order to ensure more effective support for the care,
healing, and transition of Wounded, Ill, and Injured Soldiers. They are as follows:

D.1. Soldiers Lengthy Transition Times

D.2. Soldiers Limited Access to Specialty Medical Care

We believe that addressing these challenges will increase the effectiveness of the Madigan Army
Medical Center’s leadership and staff in providing quality and timely care and services in
support of recovering Soldiers to promote their healing and transition.




                                              49

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              50

Assessment of DoD Wounded Warrior Matters -                                   Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                    May 31, 2013

D.1. Soldiers Lengthy Transition Times
Madigan Army Medical Center (MAMC) exceeded the established 100-day standard spent in the
Medical Evaluation Board (MEB) 31 phase of the disability evaluation system.

This was due in part to the lack of personnel at MAMC needed to support the high volume of
military medical board cases. Additionally, Soldiers who were undergoing their MEB were not
properly educated about the MEB process and the importance of the established timeline for
completion and final approval.

As a result, Soldiers were confronted with lengthy transition times which had potential negative
effects on some Soldiers’ transition back to Active duty or to civilian status.

D.1. Background
In November 2007, the DoD and Department of Veterans Affairs (VA) initiated a joint Disability
Evaluation System (DES) Pilot program to analyze and significantly improve the DES
timeliness, effectiveness, simplicity, and resource utilization by integrating DoD and VA
processes, eliminating duplication, and improving case management practices. The DES Pilot
subsequently became the Integrated DES (IDES).

Additionally, in January 2008, the National Defense Authorization Act for Fiscal Year 2008
(NDAA FY 2008) required DoD and VA, to develop and implement a comprehensive policy on
improvements to the care, management, and transition of recovering servicemembers.

The Integrated Disability Evaluation System (IDES) features a single set of disability medical
examinations intended to determine both military personnel fitness and disability and another set
of disability ratings provided by the VA. The IDES consists of established timeline goals for
delivering VA benefits to active duty servicemembers within 295 days and to reserve component
servicemembers within 305 days of referral to the MEB.

The DoD case processing time standard for the MEB phase of the IDES is 100 calendar days for
active duty and 140 days for reserve component servicemembers. The MEB is a process
completed by at least two physicians who review all documentation relevant to a service
member’s medical history to determine appropriate diagnosis and ability to continue serving in a
full-duty capacity. Figure 5 shows the Integrated Disability Evaluation System (IDES) timeline.




31
  Medical Evaluation Board (MEB) is the process designed to determine whether a Soldier’s long-term medical
condition enables him/her to continue to meet medical retention standard. The MEB is considered an informal
board process because, by itself, it does not drive any personnel actions.



                                                      51

Assessment of DoD Wounded Warrior Matters -                                     Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                      May 31, 2013


                    Figure 5. Integrated Disability Evaluation System Timeline




            Source: Office of Wounded Warrior Care and Transition, Directive Type Memorandum –
            11-015, “Integrated Disability Evaluation System (IDES), December 19, 2011

Following our visit to JBLM WTB, the Under Secretary of Defense for Personnel and Readiness
issued Directive-Type Memorandum (DTM) 11-015 – “Integrated Disability Evaluation System
(IDES),” December 19, 2011. This DTM establishes policy, assigns responsibilities, and
prescribes procedures for the IDES process.

D.1. Discussion
The Integrated Disability Evaluation System was fully implemented at Joint Base Lewis-
McChord (JBLM) on February 4, 2010. JBLM was established as one of three Physical
Evaluation Board (PEB) 32 locations that reviewed Soldiers medical and duty performance
evidence to make a determination of fitness to continue military service (JBLMs scope of
responsibility includes all Soldiers within the Western Regional Medical Command, not just
Wounded Warriors assigned or attached to WTBs).

Since the implementation of IDES at JBLM, the Medical Evaluation Board (MEB) process has
been impacted by an increased MEB case load, staffing and space concerns, and delays in
Soldiers’ transition times.




32
  The Physical Evaluation Board (PEB) formally determines fitness for continued service and eligibility for
disability compensation. The other Army PEB locations are: Walter Reed National Military Medical Center,
Bethesda, MD.; and Fort Sam Houston, San Antonio, TX.



                                                       52

Assessment of DoD Wounded Warrior Matters -                                        Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                         May 31, 2013

A Health Care Administrator from Madigan Army Medical Center (MAMC) reported that
Soldiers in the WTB spent between 327 days to 455 days from start of MEB until the packages
were forwarded for PEB. The established DoD standard for moving Soldiers through the MEB
process was 100 calendar days. He explained that there was no one single cause, stating that
each Soldier’s case was different. Causes for delay included, but were not limited to:

     •	   A Soldier’s decision to appeal;
     •	   Independent medical reviews of MEB findings;
     •	   Retrieval of medical and administrative documents from other units, and
     •	   Soldiers missing medical appointments, which then required the appointments to be re­
          scheduled.

Impact of Increased Caseload
The Health Care Administrator acknowledged other factors that impacted the IDES processing
delays at MAMC, especially the sheer volume of the case load. He explained that MAMC had
the second highest case load in the Army, with 1,800 active MEBs, plus 988 Temporary
Disability Retired List (TDRLs) 33 cases.

Subsequent to our visit, complaints were made by Soldiers and Soldiers’ families to their
congressional representatives about practices at MAMC which resulted in PTSD disability
ratings being reversed by the forensic psychiatry team. Based on these complaints, on
May 16, 2012, the Secretary of the Army and Army Chief of Staff announced a comprehensive,
Army-wide review of Soldier behavioral health diagnoses and evaluations at all of its medical
facilities since 2001. This effort, along with the already identified backlog of MEB cases placed
an additional burden on MAMC resources.

Staffing and Space Concerns
The MAMC Patient Administration Division responsible for coordinating the MEB packages
had insufficient staffing and space. Table 3 shows administrative personnel assigned to the
MAMC MEB/ Physical Evaluation Board Liaison Officer (PEBLO) 34 office as of June 2011.




33
   The Temporary Disability Retired List (TDRL) is a list of Army members found to be unfit for performance of
military duty by reason of physical disability which may be permanent, but which has not sufficiently stabilized to
permit an accurate assessment of permanent degree of disability. The law requires that a final determination be
made before the fifth anniversary of placement on the TDRL. A Soldier may be removed from TDRL at an earlier
date whenever a periodic examination discloses that the medical condition has stabilized for rating and duty
purposes.
34
   The Physical Evaluation Board Liaison Officer (PEBLO) counsels Soldiers who are undergoing physical
disability evaluation, provides Soldiers with authoritative and timely answers to their questions about the physical
disability system, and aids them in understanding their rights and entitlements.



                                                         53

Assessment of DoD Wounded Warrior Matters -                                       Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                        May 31, 2013


    Table 3. Madigan Army Medical Center Medical Evaluation Board and Physical

                        Evaluation Board Liaison Officer Staff

PEBLOs       Supervisor    Physicians     Physician      Medical     Support
                                          Assistants     Technicians
9            1             5              2              9           6
Source: Staffing breakout provided by Patient Administration Representative, June 14, 2011.

We were informed that I Corps 35 was hiring an additional 6-assistant/PEBLOs and 5-Nurse Case
Managers to separately manage the MEB cases of some 200 Soldiers in units outside the WTB.

The PEBLO is one of the most important contacts for the Service member and family
members(s) throughout the IDES process. The IDES guidance recommends a PEBLO to Soldier
ratio at each MTF of 1:20. The MAMC ratio for PEBLOs was 1:150, with each PEBLO
managing over 100 cases at a time.

MAMC had insufficient staff to handle the 1,800 plus MEB cases, and insufficient space for
existing staff and medical records. Moreover, during our interview with MAMC leadership, they
voiced similar concerns regarding space constraints and manpower, stating that they would need
a separate building just to house and complete the work required for processing the volume of
medical records for review.

Several initiatives were in place to address the insufficient staffing and space constraint
concerns. MAMC was hiring 200 PEBLOs, MEB technicians, and providers. As new hires
were phased in the plan was for them to receive the requisite specialized training for their
individual roles. To address space concerns, MAMC purchased and renovated 11 trailers for the
newly assigned staff.

Given the excessive length of time for the IDES process, there was a need for more
administrative support to copy records and to track Narrative Summary (NARSUM) 36
completion, as well as a need for more PEBLOs. A health care provider mentioned that there
appears to be no incentive for the Soldier to get better while waiting for his or her MEB, and
based on the nature of the Soldier’s injuries, new health problems could arise, further prolonging
their stay and delaying the MEB process. Furthermore, a legal representative commented that
there was a lack of transparency in the system, noting that a Soldier cannot “see” where their
package is. In addition, the representative mentioned that Soldiers needed to have a better
understanding of the board processing system.




35
   First Corps is one of the four Corps headquarters in the active Army, and one of three based in the continental
United States. I Corps has been designated as one of the active Army’s contingency corps, and stays prepared to
deploy on short notice worldwide to command up to five divisions or a joint task force.
36
   The Narrative Summary (NARSUM) is a summary of a patient’s medical history, physical examination, medical
tests and results, all consultations, diagnoses, treatment and prognosis written by a physician and placed in the MEB
package.



                                                         54

Assessment of DoD Wounded Warrior Matters -                           Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                            May 31, 2013

Based on our interviews, WTB Soldiers described the medical board process as “confusing and
stressful.” Additionally, they cited concerns that their required paperwork was lost, including
medical records, and that medical appointments took a long time to complete. Other complaints
were as follows:

   •	 “Following your VA appointments, it still took 2 to 4 weeks to get NARSUMs back.”

   •	 “It took three months to get an appointment with forensic psychology, then three months
      to get a second signature which led to a lot of waiting because of a huge backlog.”

   •	 “The process is the best it can be with so many Soldiers going through the medical board
      process; however, communications could be better with my PEBLO in regards to
      findings.”

   •	 “I had been on the fast track with my MEB when three more units returned which caused
      everything to slow down. The MEB and PEB technicians are just slammed. I constantly
      check on the progress of my package, but everyone is so busy I always get told to wait.”
Finally, one Guard Soldier stated that this place “steals your soul and puts you in a deeper
depression.” He further mentioned that the time spent at the WTB was too long, and that he
could not plan for the future without a timeline to go by. “They tell me to plan for the future, but
they cannot tell me when I can leave.”

D.1. Conclusion
The NDAA FY 2008 language required DoD and Department of Veterans Affairs to jointly
develop and implement a comprehensive policy on improvements to care, management, and
transition of recovering servicemembers.

Concerns about the length of time it took for processing the boards, evaluations, and paperwork
required for Soldiers to transition continue to be addressed by the appropriate agencies. MAMC
had put measures in place to hire and train new PEBLOs, MEB technicians, and providers.
MAMC purchased and renovated trailers to provide additional office space for newly hired staff
so they could better perform their jobs to ensure that MEBs could be processed in a timely
fashion.

The mandated comprehensive, Army-wide review of Soldier behavioral health diagnoses and
evaluations further impacted the challenges faced by the MAMC Patient Administration
Division, not only to complete the mandated reviews but to continue processing new and
ongoing MEBs and PEBs.

Despite efforts to improve the process, however, the prolonged IDES process appeared to
contribute to frustrations and complaints among Soldiers which negatively impacted the Soldier
and family as they prepared to transition back to Active Duty or to civilian life.




                                                55

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                          May 31, 2013

D.1. Recommendations, Management Comments, and Our Response
       D.1.1. Commander, Western Regional Medical Command track each phase of the
       IDES process over time to identify and act upon barriers to timely IDES completion
       for Soldiers assigned or attached to WTBs.

The Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comments to
our recommendation. The Surgeon General reported that in June 2012, Western Regional
Medical Command (WRMC) developed and staffed a new Integrated Disability Evaluation
System (IDES) section within the Warrior Transition Office (WTO) to identify, monitor and
analyze trends and conditions affecting timely and efficient disability processing for Warrior
Transition Battalion Soldiers. In addition, they reported that the Veterans Tracking Application
(VTA) was established as the system of record and is updated and used by IDES stakeholders,
which allows the WTO to track each phase of the IDES process.

The Surgeon General stated that to improve timeliness, WRMC instituted a monthly
teleconference review with military treatment facilities (MTF) to discuss WTB Soldier’s cases
delayed in the Medical Evaluation Board (MEB) phase for greater than 150 days. MTFs provide
a detailed status update, to include planned actions and obstacles to the WTO at the time of the
teleconference. The Surgeon General reported that this continuing action has resulted in a
significant decrease in WTB cases delayed in the MEB phase from 218 cases on November 29,
2012 to 60 cases by March 12, 2013. The Surgeon General reported that as a result of this
successful review, WRMC monthly teleconference reviews have expanded to include all WRMC
Soldiers in the MEB phase of IDES greater than 150 days.

Furthermore, the Surgeon General reported that to reduce backlog and improve timely
processing, a 15 member team of Soldiers was sent to provide administrative support to the VA
Disability Evaluation System Rating Activity Sites (DRAS). The VA DRAS is responsible for
applying disability ratings to claimed conditions acquired during service. The impact of this
team will be evaluated after 6 months to determine if additional support is required.

Finally, the Surgeon General stated that in March 2013, the WTO initiated monitoring of all
WTB Soldiers in the MEB phase of IDES for more than 100 days. The information will be
shared during the monthly WRMC WTB Nurse Case Manager meetings. They further stated
that continuous monitoring and dialogue will determine what further actions are required to
improve the overall timeliness of disability processing for Soldiers.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. No further action is required.




                                               56

Assessment of DoD Wounded Warrior Matters -                           Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                            May 31, 2013


       D.1.2. Commander, Madigan Army Medical Center:

       D.1.2.a. Identify obstacles within the MEB referral, claim development, medical
       evaluation, and MEB processing states that inhibit prompt MEB completion, and
       request additional personnel resources from WRMC that will eliminate the MEB
       backlog and optimize ongoing processes.

       D.1.2.b. Request additional resources to provide sufficient space to support staff
       requirements for effective MEB processing.

       D.1.2.c. Educate Soldiers and their families on the IDES process to include a
       realistic timeline for what the Soldier can expect once the process begins.

       D.1.2.d. Develop a mechanism whereby a Soldier can track and be informed of his
       or her status in the IDES process.

Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comments to
our recommendations. The Surgeon General stated that Madigan Army Medical Center
identified multiple obstacles impacting WTB Soldiers processing times. These obstacles
include: the lack of MEB personnel; extensive medical records review mandated by MEDCOM;
difficulty in obtaining copies of medical records and administrative documents required to
process cases; and scheduled leave for Soldiers at the referral stages.

The Surgeon General further noted that in the last 13 months, JBLM MEB has hired and trained
32 PEBLOs, 11 PEBLOs Supervisors, 36 Contact Representatives and 5 Administrative
Assistants. This increase in staffing has reduced the caseload to approximately 58 cases per
PEBLO. An intake team was also created to obtain original medical records, create copies,
initiate contact with the Soldiers, and to identify problems early on in the case. Furthermore,
they reported that in August 2012, eleven modular units were refitted as temporary office space
and currently house approximately 100 staff members. Future construction is planned for a
larger, 4,000 square foot building to house all MEB staff not collocated in the Brigades, as well
as VA Military Service Coordinators, QTC providers, IDES Soldier’s legal counsel, and others.

Finally, the Surgeon General reported that MAMC has implemented a formalized process where
Soldiers and their families are educated on the IDES process. Soldiers during their initial
briefing are instructed to attend their initial IDES briefing, usually within 7 days. The briefings
cover all aspects of the IDES process, to include timelines. Timelines are again reviewed when
the Soldier receives one-on-one counseling with their PEBLO. Additionally, the Surgeon
General stated that Soldiers now have the capability to track their IDES progress via their AKO,
and that data entry compliance has improved greatly over the last 13 months. Moreover,
Soldiers can contact their PEBLO at any time for updates; and starting May 1, 2013, PEBLOs
began monthly contacts with Soldiers to provide updates, even if there status is unchanged.




                                                57

Assessment of DoD Wounded Warrior Matters -                   Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                    May 31, 2013

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendations. No further actions required.




                                              58

Assessment of DoD Wounded Warrior Matters -                          Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                           May 31, 2013

D.2. Soldiers Timely Access to Specialty Medical Care
Soldiers had difficulty in obtaining timely appointments for some specialty medical care needs,
specifically, Orthopedics, Pain Management, Behavioral Health and Forensic Psychiatry.

This was due in part to the limited availability of provider resources and a lack of understanding
by some Soldiers of the process for specialty medical care access.

As a result, necessary medical evaluations and treatments may have been delayed, prolonging
Soldiers’ transition time.

D.2. Background
MAMC is a 200-bed medical treatment facility providing both inpatient and outpatient services.
Services included:

    •	 Primary Care: Family Medicine, Pediatrics, Internal Medicine
    •	 Specialty Care: Medical and General Surgery, Emergency Medicine, Ophthalmology,
       Obstetrics/Gynecology, Otolaryngology (ENT), Behavioral Health and Psychiatry,
       Psychology and Social Work Services, and
    •	 Clinical Support Services: Radiology, Laboratory, Pharmacy, Preventive Medicine, and
       Substance Abuse Rehabilitation

The Assistant Secretary of Defense (Health Affairs) Policy Memorandum 11-005, “TRICARE
Policy for Access to Care,” February 23, 2011, includes referrals for Specialty Care Services,
stating that beneficiaries must be offered an appointment with an appropriately trained provider
within 4 weeks (28 calendar days) or sooner, if required, and within 1-hour travel time from the
beneficiary’s residence.

Furthermore, the Office of the Surgeon General Medical Command (MEDCOM) Policy Memo,
10-062. “MEDCOM Military Treatment Facility (MTF) Access to Care for Active Duty Service
Members (ADSM), including Warriors in Transition (WT),” August 26, 2010, addressed
Enhanced Access to Care for Service members as seven working days for initial specialty care.
The Army Enhanced Access to Care Standard is for initial specialty care appointments at the
MTF. However, referrals made to the TRICARE civilian network or to other DoD/VA medical
facilities remain under the 28 calendar day standard.

D.2. Discussion
Soldiers indicated that they were satisfied with the WTB Clinic and support provided by their
primary care managers (PCM). However, Soldiers reported in multiple interviews that access to
specialty care was slow, and that some appointments (initial and follow up) could take up to a
month or two. Soldiers’ comments included:




                                                59

Assessment of DoD Wounded Warrior Matters -                                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                          May 31, 2013

     •	 “Forensic Psychiatry37 took three months and was a big bottleneck.”

     •	 “The PTSD Clinic was usually backed up and the doctors seemed very busy and
        overworked. Despite the fact that appointments were hard to get, once you got them the
        quality of care was OK.”

     •	 “The care is good; it is the logistics side that has failed. Even though the WTB has
        priority, his appointments and surgeries kept getting pushed back.”

There was a shortfall of services for those Soldiers with severe TBI/PTSD and various
behavioral health problems. WTB senior leaders also commented that Occupational Therapy,
Orthopedics, Pain Management and Forensic Psychiatry services tended to be very busy and
appointments were difficult to obtain.

According to one WTB provider, access for Orthopedics, Plastic Surgery, Forensic Psychiatry
and Psychology usually required a month wait. He further explained that over the past several
months, the backlog of services had improved with the exception of Orthopedics, which was still
the primary delay for Soldiers. The provider mentioned that the forensic psychiatry program
needed to be better resourced, stating that it usually took a month for the Soldier to get a forensic
psychiatry appointment, then another 3-4 months for completion of the evaluation.

Another provider mentioned that access to the hand surgeon took about a month. Access to an
orthopedic surgeon could be difficult, but occasionally the Soldier could be seen by the
Orthopedic Physician Assistant. 38 He also reported that the real bottleneck was with Forensic
Psychiatry.

Finally, a nurse case manager also explained that sometimes it “could take months for a Soldier
to get seen by Neurosurgery and Orthopedics.” She also mentioned that “Forensic Psychiatry
could be a nightmare, taking months for physicians to complete the write-ups and even longer for
the second signature review on the final paperwork.” Since 2008, MAMC had utilized a
Forensic Psychiatry team to evaluate and complete behavioral health evaluations on Soldiers
diagnosed with PTSD as part of the Integrated Disability Evaluation System (IDES).

Subsequent to our visit, changes have been implemented regarding utilization of Forensic
Psychiatrists in evaluating Soldiers with PTSD diagnoses. The Army Surgeon General’s Office
issued “Policy Guidance on the Assessment and Treatment of Post-Traumatic Stress Disorder



37
   Forensic Psychiatry is that dealing with the legal aspects of mental disorders; the branch of psychiatry that makes
determinations, as regarding fitness to stand trial, the need for commitment, or responsibility for criminal behavior,
in a court of law.
38
   A physician assistant (PA) is a medical professional who works as part of a team with a doctor. PAs perform
physical examinations, diagnose, and treat illnesses; order and interpret lab tests; perform procedures; assist in
surgery; provide patient education and counseling. A PA is a graduate of an accredited PA educational program
who is nationally certified and state –licensed to practice medicine with the supervision of a physician.



                                                          60

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                          May 31, 2013

(PTSD),” April 10, 2012. The policy outlines the responsibilities of behavioral health and
medical care providers on the assessment and treatment of PTSD.

D.2. Conclusion
Access to certain specialty medical care services for some Soldiers had been lengthy and
frustrating. We heard from providers that specialty services backlog had improved; however,
there was still a month wait, which was within the TRICARE Access to Care standard but not the
Army’s Enhanced Access to Care Standard of seven working days for initial specialty care
access.

In summary, delays in receiving timely specialty medical care services impacted the Soldiers’
healing, contributed to delays in MEB processing, and further delayed their transition.

D.2. Recommendation, Management Comments, and Our Response
       D.2. Commander, Madigan Army Medical Center conduct an analysis to determine
       obstacles to access and delays encountered and then take appropriate steps
       (including increased referrals to the civilian TRICARE network) to ensure that
       Warrior Transition Battalion Soldiers’ access to all specialty care meets or exceeds
       the Army Enhanced Access to Care Standards.

Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with comment to
our recommendation. The Surgeon General reported that Madigan Army Medical Center
(MAMC) primary care managers refer WTB Soldiers for specialty care and the assigned Nurse
Case Manager books the referral with the appropriate MAMC specialty clinic. WTB Soldiers
are referred to providers in the TRICARE network when enhanced access to care standards for
specialty care cannot be met.

The Surgeon General further noted that as part of the monthly monitoring of enhanced access to
care performance metrics, MAMC Clinical Services Division had implemented an oversight
process to ensure that action has been taken to schedule a Soldier that has not been offered an
appointment within the established standard. Based on these actions their most recent data
analysis indicated that initial specialty consults met the enhanced access to care standard 83.4
percent of the time, which is below the MEDCOM goal of 90 percent. Reported delays were
attributed to Soldier request for personal reasons, such as leave, and a lack of appointment
availability.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
the actions meet the intent of the recommendation. No further action is required.




                                               61

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              62

Assessment of DoD Wounded Warrior Matters -                          Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                           May 31, 2013



Appendix A. Scope, Methodology, and
Acronyms
We announced and began this assessment on April 16, 2010. Based on our objectives, the
assessment was planned and performed to obtain sufficient evidence to provide a reasonable
basis for our observations, conclusions, and recommendations. The team used professional
judgment to develop reportable themes drawn from multiple sources, to include interviews with
individuals and groups of individuals, observations at visited sites, and reviews of documents.

We visited the Warrior Transition Battalion and Madigan Army Medical Center (MAMC) –
Madigan Healthcare System located on Joint Base Lewis-McChord, Washington, from June 14­
24, 2011. During our site visit we observed battalion operations and formations; viewed living
quarters, campus facilities, and selected operations at the medical facility; and examined
pertinent documentation. We also conducted meetings and interviews – ranging from unit
commanders, staff officers, and WTB staff, to civilian staff and contractors – as shown below:

   •     MAMC Commander and Sergeant Major             •	 WTB Behavioral Health Licensed
   •     Deputy Commander for Nursing Services            Clinical Social Workers
   •     WTB Commander and Sergeant Major              •	 Soldier and Family Assistance
   •     WTB Operations and Personnel Officers            Center Director
   •     WTB Surgeon                                   •	 Physical Evaluation Board Liaison
   •     WTB Pharmacist                                   Officer
   •     WTB Company Commanders                        •	 Ombudsman
   •     WTB First Sergeants                           •	 Family Readiness Support Assistant
   •     WTB Platoon Sergeants                         •	 Veterans Assistant Liaison
   •     WTB Squad Leaders                             •	 Chief, Patient Administration
   •     WTB Primary Care Managers                        Division (phone)
   •     WTB Occupational Therapists                   •	 Chief, Pain Management Clinic
   •     Soldiers’ MEB Counsel                            (phone)
                                                       •	 Traumatic Brain Injury Clinic
Further, we performed interviews with WTB Soldiers, to include 60 individual interviews with
Soldiers, and 4 group interviews with additional Soldiers grouped by rank. The 4 group
interviews consisted of the following participants:
   •	   4 Army Officer/Senior Enlisted = 4 Active and Reserve Component
   •	   3 Army E5 – E7 = 3 Active Component
   •	   9 Army E5 – E6 = 9 Reserve Component
   •	   10 Army E3 – E4 = 10 Active and Reserve Component

We prepared standardized sets of questions that were used during individual and group sessions,
which were tailored to the type or group of personnel being interviewed. Those interviews
primarily included but were not limited to recovering Soldiers and members of the Triad of Care
– primary care managers, nurse case managers, and WTB squad leaders. The standardized
interview questions for these groups included among others, topics such as access to care, use of



                                               63

Assessment of DoD Wounded Warrior Matters -                             Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                              May 31, 2013

Comprehensive Transition Plans, responsibilities for Triad of Care members, working
relationships amongst the Triad of Care members, and discipline issues within the WTB.

Use of Technical Assistance and Computer-Processed Data
We did not use computer-processed data to perform this assessment. However, analysts from the
DoD Office of the Inspector General, Deputy Inspector General for Audit, Quantitative Methods
and Analysis Division, used a simple random sample approach to determine the number of
Soldiers we should interview at the JBLM WTB to obtain a representative sample. The random
sample was used to avoid any biases that might have been introduced by selecting interviewees
non-statistically.

The analysts used a list of Soldiers identified by name, rank, and WTB company assignment
(Alpha, Bravo, and Charlie Companies, and Headquarters Company), which we obtained from
the JBLM WTB. As of January 31, 2011, there were 414 Soldiers at the JBLM WTB, which was
the total population from which we drew our random sample.

The analysts used a program called the Statistical Analysis System and its internal random
number generator to assign random values to each individual, then sorted all 414 Soldiers into
random number sequence. Using this method, the analysts calculated a sample size of
59 Soldiers for individual interviews. The sample size is based on a 90 percent confidence level,
a planned margin of error of 10 percent, and the statistically conservative assumption of a
50 percent error rate.

The team used this approach to first determine whether any reportable themes (noteworthy
practices, good news, issues, concerns, and challenges) were identified by those most impacted
by their assignment to the WTB, the Soldiers. We met and interviewed MAMC and WTB
military and civilian staff, and contractors supporting the WTB – to corroborate the identified
themes or to identify other reportable themes not readily known to the Soldiers.

We provided the list of Soldiers to be interviewed from our randomly generated sample to the
JBLM WTB. With a requirement of 59 interviews, we advised the JBLM WTB that those 59
interview slots should be filled with Soldiers from the primary list, assigned values 1 through 65
in random order sequence until all interview slots were full. If the WTB was unable to fill all 59
slots with the primary sample provided, we provided alternates that could be used (for a total of
99 randomly selected Warriors). We further advised the JBLM WTB that a justification had to
be provided for any individuals in that sequence that were unable to attend an interview for
mitigating reasons such as convalescent leave, annual leave, medical appointments, physical
impairments, logistical constraints, etc. Below are the results from our interviews with
individual Soldier’s at the JBLM WTB.

Of the 92 Soldiers statistically selected with random order numbers 1 through 99:
   •   43 Soldiers from the primary list of 65 were interviewed;
   •   13 Soldiers from the alternate list of 27 were interviewed;
   •   4 Soldiers were interviewed, but not on a designated list, and
   •   36 Soldiers were excused.


                                                64

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                          May 31, 2013

The JBLM WTB provided an acceptable excuse for all the Soldiers who were unavailable for the
interviews. We believe that the information obtained from the 43 individuals selected as part of
our original random sample provided a reasonable indication of the views of the total population,
and we found that the views provided by the additional 17 Warriors interviewed mirrored those
of the statistically selected Warriors.

Acronym List
The following acronyms were used in this report.

AW2                   Army Wounded Warrior Program
ACAP                  Army Career and Alumni Program
ACS                   Army Community Service
aCTP                  Automated Comprehensive Transition Plan
AHLTA                 Armed Forces Health Longitudinal Technology Application
AKM                   Army Knowledge Management
AKO                   Army Knowledge Online
ALARACT               All Army Activities
ASC                   Anderson Simulation Center
AWCTS                 Army Warrior Care and Transition System
BH                    Behavioral Health
BRAC                  Base Realignment and Closure
C2                    Command and Control
CAC                   Common Access Card
CBWTU                 Community Based Warrior Transition Unit
CER                   Career and Education Readiness
CG                    Commanding General
CHTW                  Coming Home to Work
CM                    Case Management
CO-ADOS               Contingency Operations Active Duty for Operational Support
COTA                  Certified Occupational Therapy Assistant
CONUS                 Continental United States
CSF                   Comprehensive Soldier Fitness
CSW                   Clinical Social Worker
CTP-G                 Comprehensive Transition Plan - Guidance
CTP                   Comprehensive Transition Plan
CWO2                  Chief Warrant Officer Two
CYS/CYSS              Child, Youth, and School Services
DCCS                  Deputy Commander for Clinical Services
DES                   Disability Evaluation System
DoDI                  Department of Defense Instruction
DoD IG                Department of Defense Office of the Inspector General
DTM                   Directive-Type Memorandum
DVA                   Department of Veterans Affairs
DVBIC                 Defense and Veterans Brain Injury Center
E2I                   Education and Employment Initiative
EEI                   Employment, Education and Internship


                                               65

Assessment of DoD Wounded Warrior Matters -                   Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                    May 31, 2013


EFMP                 Exceptional Family Member Program
ERS                  Evaluation Reporting System
EXORD                Department of the Army Execution Order
FRAGO                Fragmentary Order
FTR                  Focused Transition Review
GME                  Graduate Medical Education
HHC                  Headquarters and Headquarters Company
IDES                 Integrated Disability Evaluation System
LCSW                 Licensed Clinical Social Worker
LPN                  Licensed Practical Nurse
LVN                  Licensed Vocational Nurse
JER                  Joint Ethics Regulation
JBLM                 Joint Base Lewis-McChord
MAMC                 Madigan Army Medical Center
MEB                  Medical Evaluation Board
MEDCOM               The United States Army Medical Command
MEDDAC               Medical Department Activity
MSC                  Military Service Coordinator
mTBI                 Mild Traumatic Brain Injury
MTF                  Military Treatment Facility
NARSUM               Narrative Summary
NCM                  Nurse Case Manager
NCO                  Non-Commissioned Officer
NJP                  Non-Judicial Punishment
OCO                  Overseas Contingency Operations
OPORD                Operational Order
OTR                  Occupational Therapist Registered
OTSG                 Office of the Surgeon General
OEF                  Operation Enduring Freedom
OIF                  Operation Iraqi Freedom
OWF                  Operation WARFIGHTER
PA                   Physician Assistant
PCM                  Primary Care Manager
PCS                  Permanent Change of Station
PEB                  Physical Evaluation Board
PEBLO                Physical Evaluations Board Liaison Officer
PMART                Pharmacy Medication Analysis & Reporting Tool
PT                   Physical Therapist
PTA                  Physical Therapy Assistant
PTSD                 Post Traumatic Stress Disorder
RC                   Reserve Component
SFAC                 Soldier and Family Assistance Center
SL                   Squad Leader
SOPs                 Standard Operating Procedures
TBI                  Traumatic Brain Injury
TCS                  Temporary Change of Station


                                              66

Assessment of DoD Wounded Warrior Matters -                    Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                     May 31, 2013


TDRL                 Temporary Disability Retired List
TOL                  Triad of Leadership
TRICARE              Tri-Service Medical Care
TSGLI                Traumatic Servicemember’s Group Life Insurance
UCMJ                 Uniform Code of Military Justice
VA                   Department of Veterans Affairs
VR&E                 Vocational Rehabilitation and Employment
WCTP                 Warrior Care and Transition Program
WT                   Warrior in Transition
WTB                  Warrior Transition Battalion
WTC                  Warrior Transition Command
WTU                  Warrior Transition Unit
WRMC                 Western Regional Medical Command




                                              67

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              68

Assessment of DoD Wounded Warrior Matters -                       Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                        May 31, 2013



Appendix B. Summary of Prior Coverage
Several reports were issued during the past 6 years about Department of Defense and Department
of Veterans Affairs health care services and management, disability programs, and benefits. The
Government Accountability Office (GAO), the Department of Defense Inspector General
(DOD IG), and the Naval Audit Service have issued 28 reports relevant to DoD Warrior Care
and Transition Programs.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/PUBS/index.html.
Naval Audit Service reports are not available over the Internet.

GAO
GAO Report No. GAO-13-5, “Recovering Servicemembers and Veterans, Sustained Leadership
Attention and Systematic Oversight Needed to Resolve Persistent Problems Affecting Care and
Benefits,” November 2012

GAO Report No. GAO-12-676, “Military Disability System: Improved Monitoring Needed to
Better Track and Manage Performance,” August 28, 2012

GAO Report No. GAO-12-718T, “Military Disability System: Preliminary Observations on
Efforts to Improve Performance,” May 23, 2012

GAO Report No. GAO-12-27R, “Department of Defense: Use of Neurocognitive Assessment
Tools in Post-Deployment Identification of Mild Traumatic Brain Injury,” October 24, 2011

GAO Report No. GAO-12-129T, “DOD and VA Health Care: Action Needed to Strengthen
Integration across Care Coordination and Case Management Programs,” October 6, 2011

GAO Report No. GAO-11-551, “Defense Health Care: DOD Lacks Assurance that Selected
Reserve Members Are Informed about TRICARE Reserve Select,” June 3, 2011

GAO Report No. GAO-11-572T, “Federal Recovery Coordination Program: Enrollment,
Staffing, and Care Coordination Pose Significant Challenges,” May 13, 2011

GAO Report No. GAO-11-633T, “Military and Veterans Disability System: Worldwide
Deployment of Integrated System Warrants Careful Monitoring,” May 4, 2011

GAO Report No. GAO-11-32, “VA Health Care: VA Spends Millions on Post-Traumatic Stress
Disorder Research and Incorporates Research Outcomes into Guidelines and Policy for Post-
Traumatic Stress Disorder Services,” January 24, 2011

GAO Report No. GAO-11-69, “Military and Veterans Disability System: Pilot Has Achieved
Some Goals, but Further Planning and Monitoring Needed,” December 6, 2010




                                              69

Assessment of DoD Wounded Warrior Matters -                      Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                       May 31, 2013

GAO Report No. GAO-09-357, “Army Health Care: Progress Made in Staffing and Monitoring
Units that Provide Outpatient Case Management, but Additional Steps Needed,” April 20, 2009

GAO Report No. GAO-09-31, “Defense Health Care: Additional Efforts Needed to Ensure
Compliance with Personality Disorder Separation Requirements,” October 31, 2008

GAO Report No. GAO-08-635, “Federal Disability Programs: More Strategic Coordination
Could Help Overcome Challenges to Needed Transformation,” May 20, 2008

GAO Report No. GAO-08-615, “DOD Health Care: Mental Health and Traumatic Brain Injury
Screening Efforts Implemented, but Consistent Pre-Deployment Medical Record Review
Policies Needed,” May 30, 2008

GAO Report No. GAO-08-514T, “DOD and VA: Preliminary Observations on Efforts to
Improve Care Management and Disability Evaluations for Servicemembers,” February 27, 2008

GAO Report No. GAO-07-1256T, “DOD and VA: Preliminary Observations on Efforts to
Improve Health Care and Disability Evaluations for Returning Servicemembers,” September 26,
2007

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DOD Needs to Identify the
Factors Its Providers Use to Make Mental Health Evaluation Referrals for Servicemembers,”
May 11, 2006

DOD
Department of Defense Recovering Warrior Task Force, 2011-2012 Annual Report, August 31,
2012

Department of Defense Recovering Warrior Task Force, 2010-2011 Annual Report, September
2, 2011

DOD IG
DOD IG Report No. DODIG-2012-120, “Assessment of DoD Wounded Warrior Matters –
Wounded Warrior Battalion – West Headquarters and Southern California Units,” August 22,
2012

DOD IG Report No. DODIG-2012-067, “Assessment of DOD Wounded Warrior Matters –
Camp Lejeune,” March 30, 2012

DOD IG Report No. SPO-2011-010, “Assessment of DOD Wounded Warrior Matters – Fort
Drum,” September 30, 2011

DOD IG Report No. SPO-2011-004, “Assessment of DOD Wounded Warrior Matters – Fort
Sam Houston,” March 17, 2011




                                              70

Assessment of DoD Wounded Warrior Matters -                    Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                     May 31, 2013

DOD IG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service Members
Injured in Operation Iraqi Freedom/Operation Enduring Freedom,” June 12, 2008

DOD IG Report No. IE-2008-003, “Observations and Critique of the DoD Task Force on
Mental Health,” April 15, 2008

Army
Army Audit Report No. A-2011-0008-IEM, “Army Warrior Care and Transition Program,”
October 21, 2010

Navy
Naval Audit Service Report No. N2009-0046, “Marine Corps Transition Assistance Management
Program - Preseparation Counseling Requirement,” September 15, 2009

Naval Audit Service Report No. N2009-0009, “Department of the Navy Fisher Houses,”
November 4, 2008




                                              71

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              72

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                          May 31, 2013


Appendix C. Reporting Other Issues
We performed the Assessment of DoD Wounded Warrior Matters at four Army locations and
two Marine Corps locations and reported on each location separately. This assessment report
focused on whether the programs for the care, management, and transition of Warriors in
Transition at the Joint Base Lewis-McChord Warrior Transition Battalion (WTB), Washington,
were managed effectively and efficiently.

Additionally, in the future we may report on issues, concerns, and challenges that were common
among the 6 sites visited, and that were identified as systemic issues. These reports will be
provided to appropriate organizations to provide information on or identify corrective actions
addressing those issues, concerns, and challenges. Those organizations may include but are not
limited to the Under Secretary of Defense for Personnel and Readiness; the Assistant Secretary
of Defense for Health Affairs; the U.S. Army Medical Department, Office of the Surgeon
General; the U.S. Army Medical Command, Warrior Transition Command; and others as
required.

This appendix captures issues, concerns, and challenges we identified that may be included in
future report(s). Refer to the table below for some potential report topics.

                              Table 1. Potential Report Topics

                                                                                   Report
                      Issue, Concerns, and Challenges
                                                                                 Reference(s)
 Selection and Training of Leaders and Cadre of Warrior Transition Units         N/A
 Medication Management                                                           N/A
 Assessment of Navy and Air Force Wounded Warrior Programs                       N/A
 Management of National Guard and Reserve Recovering Service Members             B.1., pages
 Healthcare Delivery                                                             24-25
 Timely Access to Specialty Medical Care                                         D.2., pages
                                                                                 59-61
 Service-level Management of the Integrated Disability Evaluation System         D.1., pages
 (IDES)                                                                          51-58




                                               73

Assessment of DoD Wounded Warrior Matters -                 Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                  May 31, 2013





                           This Page Intentionally Left Blank




                                              74

Assessment of DoD Wounded Warrior Matters -                         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                          May 31, 2013



Appendix D. Army Guidance for Warrior
Transition Units
Army guidance for the care and management of Warriors is contained in the “Warrior Transition
Unit Consolidated Guidance (Administrative),” March 20, 2009 (hereafter, “Consolidated
Guidance”). It was revised in March 20, 2009 to update policies and guidance for the care and
management of Warriors. According to the Consolidated Guidance, a Warrior is a Soldier who
is assigned or attached to a Warrior Transition Unit (WTU) whose primary mission is to heal.

The Consolidated Guidance addresses specific policy guidance regarding assignment or
attachment to a WTU, the process for the issuance of orders to Soldiers, and other administrative
procedures for Soldiers being considered for assignment or attachment to a WTU. The
publication also summarizes existing personnel policies for family escort, non-medical attendant,
housing prioritization, leave, and other administrative procedures for Soldiers assigned or
attached to a WTU. Further, it provides information on the Physical Disability Evaluation
System for Soldiers processing through this system.

Pertinent Federal statutes, regulations, and other standards governing these programs and
services are cited throughout the Consolidated Guidance and are collated in a reference section.
The document also states that, previously, there was no overarching Army collective or
regulatory administrative guidance for WTUs.

The authority for WTUs is provided by:
   •	 Department of the Army EXORD [Execute Order] 118-07 Healing Warriors, 

      June 21, 2007.

   •	 Department of the Army FRAGO [Fragmentary Order] 1 to EXORD 118-07 Healing
      Warriors, August 16, 2007.
   •	 Department of the Army FRAGO 2 to EXORD 118-07 Healing Warriors, 

      December 14, 2007.

   •	 Department of the Army FRAGO 3 to EXORD 118-07 Healing Warriors, July 1, 2008.

The overview of the WTU program is stated as:
   •	 Vision – to create an institutionalized, Soldier-centered WTU program that ensures
      standardization, quality outcomes, and consistency with seamless transitions of the
      Soldier’s medical and duty status from points of entry to disposition.
   •	 Goal – to expeditiously and effectively evaluate, treat, return to duty, and/or

      administratively process out of the Army, and refer to the appropriate follow-on 

      healthcare system, Soldiers with medical conditions.

   •	 Intent – to provide Soldiers with optimal medical benefit, expeditious and comprehensive
      personnel and administrative processing, while receiving medical care. The Army will
      take care of its Soldiers through high quality, expert medical care. For those who will
      leave the Army, the Army will administratively process them with speed and compassion.
      The Army will assist with transitioning Soldiers’ medical needs to the Department of
      Veterans Affairs for follow-on care.



                                               75

Assessment of DoD Wounded Warrior Matters -                                      Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                       May 31, 2013

The objectives of the WTU program are stated as:
     •	 “Address and ensure resolution on all aspects of personnel administration and processing
        for the WT [a Warrior] from points of entry through disposition, to include processing
        through the Physical Disability Evaluation System (PDES). Final disposition occurs
        when the WT is determined/found medically cleared for duty or the PDES process is
        complete, including appeals.”
     •	 “Address and ensure resolution on the administrative aspect of medical management for
        the WT, including Tri-Service Medical Care (TRICARE) and/or Veterans Health
        Administration follow on medical care.”
     •	 “Address and ensure resolution on command and control (C2), including logistical
        support, for the WT assigned or attached to garrison units, Medical Treatment Facilities
        (MTF), Warrior Transition Units (WTU), and Community-Based Warrior Transition Unit
        (CBWTU).” 39
     •	 “Address and ensure resolution on the accountability and tracking of the WT in real time
        as he/she progresses through the WT process and if necessary, the PDES process.”

The Mission Essential Task List of the WTU program states that the Army will–
     •	 “Provide Command/Control and Administrative Support (including pay) trained to focus
        on special needs of WT Soldiers.”
     •	 “Provide high quality, expert medical care, and case management support - Primary Care
        Provider, Case Manager, Behavioral Health, Specialty Providers.”
     •	 “Administratively process with speed and compassion those who will leave the Army.”
     •	 “Facilitate transition of separating and REFRAD’ing [Release From Active Duty]
        Soldiers to the VHA [Veterans Health Administration] or TRICARE for follow-on care.”

The WTU concept of operations is stated as:
     •	 “Provide Soldiers high-quality living conditions.”
     •	 “Prevent unnecessary procedural delays.”
     •	 “Establish conditions that facilitate Soldier’s healing process physically, mentally, and
        spiritually.”
     •	 “Provide a Triad of Warrior Support that consist of Platoon Sergeant/Squad Leader, Case
        Manager (CM), and Primary Care Manager (PCM), working together to ensure advocacy
        for WT Soldiers, continuity of care and a seamless transition in the force or return to a
        productive civilian life.”




39
  Community-Based WTUs are primarily for Reserve Component Soldiers. Community-Based WTU is a program
that allows Warriors to live at home and perform duty at a location near home while receiving medical care from the
Tricare network, the Department of Veterans Affairs, or Military Treatment Facility providers in or near the
Soldier’s community.



                                                        76

Assessment of DoD Wounded Warrior Matters -                                      Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                                                       May 31, 2013



Appendix E. Office of the Surgeon General
Policy Guidance for the Comprehensive
Transition Plan
The Office of the Surgeon General Medical Command Policy Memo 11-098, November 29,
2011, “Comprehensive Transition Plan (CTP) Policy,” stated that all Soldiers, regardless of CTP
track, will complete six CTP processes. These processes overlap, interrelate, and include
multiple interconnected feedback loops. All Soldiers will complete in-processing, phase I goal
setting training, initial self-assessment, CTP track selection, and initial scrimmage within 30
days of arrival at a WTU, which will be documented using the automated CTP, counseling
records, and AHLTA 40. Specifically, these six processes included:

     •	 In-processing – lays the foundation for integration into the WTU/CBWTU and initiates
        the CTP

     •	 Goal Setting – guides the Soldier and his Family in the development of sub-goal (short­
        term) and transition outcome goal (long-term). The Specific, Measurable, Actionable,
        Realistic, and Time Bound (SMART) Action Statements provides the Soldier a roadmap
        that supports healing and transition

     •	 Transition Review – provides the interdisciplinary team with an opportunity to review
        Soldier goals and progress with a focus on identifying and resolving issues that are
        impeding goal attainment. This process includes self-assessment and scrimmage steps:

             o	   Self-Assessment – designed to facilitate weekly discussions between the Soldier
                  and his Squad leader or Platoon Sergeant and Nurse Case Manager

             o	   Scrimmage – a formal meeting with the Soldier’s interdisciplinary team that uses
                  six domains of strength (career, physical, emotional, social, Family and spiritual)
                  to develop and refine a future oriented Transition Plan

             o	   Focused Transition Review (FTR) – a formal meeting that is similar to
                  scrimmage, but focuses more on the transition plan progress and development of a
                  new plan to track remaining actions and sub-goals. Acts more as a feedback and
                  an after action review of the process for each Soldier and the supporting
                  interdisciplinary team

             o	   Synchronization of the scrimmage and FTR timelines – FTR’s augment and
                  provide additional company and battalion level focus to quarterly scrimmages




40
  Armed Forces Health Longitudinal Technology Application (AHLTA) is the clinical information system that
generates and maintains a lifelong, computer-based outpatient record for every Soldier, Sailor, Airman, and Marine;
their family members; and others entitled to DoD military care who receives care in a military treatment facility.



                                                        77

Assessment of DoD Wounded Warrior Matters -                                         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                                                          May 31, 2013

     •	 Rehabilitation – provides appropriate clinical and non-clinical interventions to support
        the Soldier’s transitional goals

     •	 Reintegration – designed to specifically prepare each Soldier and his Family for a 

        successful transition back to the force or to civilian life as a Veteran


     •	 Post-transition – refers to the period after a soldier has exited the WTU/CBWTU. The
        Soldier is under the guidance of his gaining unit, the VA, and/or the AW2 41 Program, if
        eligible. Figure 1 illustrates the six processes of the CTP as described above.

                                    Figure 1. CTP Process Flowchart




         Source: Warrior Transition Command, Comprehensive Transition Plan Policy and
         Guidance – December 1, 2011




41
   Army Wounded Warrior (AW2) is an Army program that assists and advocates for severely wounded, ill, and
injured Soldiers, Veterans, and their Families, wherever they are located, regardless of military status. The system
of support and advocacy uses a non-medical case management model to help guide severely wounded, injured, and
ill, Soldiers from evacuation, through treatment, rehabilitation, return to duty or military retirement and transition
into the civilian community. AW2 works inside the network of Army, Government, and local and national
resources to help Soldiers and Families resolve many issues and foster independence into the next stage of their
lives.



                                                          78

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013




Appendix F. Management Comments
Assistant Secretary of Defense Health Affairs




                                              79

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              80

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              81

Assessment of DoD Wounded Warrior Matters -          Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                           May 31, 2013





                                              82 

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087
Joint Base Lewis-McChord                                          May 31, 2013


The Office of the Surgeon General, U.S. Army Medical
Command




                                              83

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              84

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              85

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              86

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              87

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              88

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              89

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              90

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              91

Assessment of DoD Wounded Warrior Matters -         Report No. DoD IG-2013-087

Joint Base Lewis-McChord                                          May 31, 2013





                                              92

Special Plans & Operations
 Provide assessment oversight that addresses priority national security
 objectives to facilitate informed, timely decision-making by senior
 leaders of the DOD and the U.S. Congress.



 General Information
   Forward questions or comments concerning this assessment and report and other
   activities conducted by the Office of Special Plans & Operations to spo@dodig.mil

                      Deputy Inspector General for Special Plans & Operations
                            Department of Defense Inspector General
                                       4800 Mark Center Drive
                                    Alexandria, VA 22350-1500




                            Visit us at www.dodig.mil


   DEPARTMENT OF DEFENSE



   hot line                               make a difference
                                              800.424.9098
                                                              Report                        www.dodig.mil/hotline
                                                              Fraud, Waste, Mismanagement, Abuse of Authority
                                                              Suspected Threats to Homeland Security
   Defense Hotline, The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
